<html>
<title> - NUTRITION PROGRAMS:</title>
<body><pre>[Senate Hearing 115-598]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-598

                          NUTRITION PROGRAMS:
                  PERSPECTIVES FOR THE 2018 FARM BILL

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION


                               __________

                           SEPTEMBER 14, 2017

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry
           
           
               [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
               
               

       Available via the World Wide Web: http://www.govinfo.gov/
       
              
                                 __________  
                                 
                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
30-986 PDF                  WASHINGTON : 2019  




           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
JONI ERNST, Iowa                     MICHAEL BENNET, Colorado
CHARLES GRASSLEY, Iowa               KIRSTEN GILLIBRAND, New York
JOHN THUNE, South Dakota             JOE DONNELLY, Indiana
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
LUTHER STRANGE, Alabama              CHRIS VAN HOLLEN, Maryland

             James A. Glueck, Jr., Majority Staff Director

                DaNita M. Murray, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

               Joseph A. Shultz, Minority Staff Director

               Mary Beth Schultz, Minority Chief Counsel
               
               

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nutrition Programs: Perspectives for the 2018 Farm Bill..........     1

                              ----------                              

                      Thursday, September 14, 2017
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     3

                                Panel I

Lipps, Brandon, Acting Deputy Under Secretary, Administrator, 
  Food, Nutrition and Consumer Services, Food and Nutrition 
  Service, US Department of Agriculture, Washington, DC..........     5
Harden, Gil, Assistant Inspector General for Audit, Office of 
  Inspector General, US Department of Agriculture, Washington, DC     7
Coffey, Ann M., Assistant Inspector General for Investigations, 
  Office of Inspector General, US Department of Agriculture, 
  Washington, DC.................................................     7

                                Panel II

Schaeffer, Sam, Chief Executive Officer and Executive Director, 
  Center for Employment Opportunities, New York, NY..............    26
Parker, Bryan, Community Food Bank of Eastern Oklahoma, Tulsa, OK    27
Wright, Jimmy, President, Wright's Markets, Inc., Opelika, AL Dr. 
  Diane Schanzenbach, Director and Margaret Walker Alexander 
  Professor, Institute for Policy Research, Northwestern 
  University, Evanston, IL.......................................    29
Diane Schanzenbach, Director and Margaret Walker Alexander 
  Professor, Institute for Policy Research, Northwestern 
  University, Evanston, IL.......................................    31
Riendeau, Brian, Executive Director, Dare to Care Food Bank, 
  Louisville, KY.................................................    33
                              ----------                              

                                APPENDIX

Prepared Statements:
    Harden, Gil..................................................    50
    Lipps, Brandon...............................................    56
    Parker, Bryan................................................    60
    Riendeau, Brian..............................................    62
    Schaeffer, Sam...............................................    67
    Schanzenbach, Diane..........................................    83
    Wright, Jimmy................................................    93
Question and Answer:
Harden, Gil:
    Written response to questions from Hon. Debbie Stabenow......   102
    Written response to questions from Hon. Amy Klobuchar........   103
Lipps, Brandon:
    Written response to questions from Hon. Debbie Stabenow......   104
    Written response to questions from Hon. Patrick J. Leahy.....   106
    Written response to questions from Hon. John Hoeven..........   108
    Written response to questions from Hon. Michael Bennet.......   108
Riendeau, Brian:
    Written response to questions from Hon. Debbie Stabenow......   110
    Written response to questions from Hon. Patrick J. Leahy.....   111
    Written response to questions from Hon. Sherrod Brown........   112
Schaeffer, Sam:
    Written response to questions from Hon. Debbie Stabenow......   114
Schanzenbach, Diane:
    Written response to questions from Hon. Pat Roberts..........   118
    Written response to questions from Hon. Debbie Stabenow......   118
    Written response to questions from Hon. Patrick J. Leahy.....   120
    Written response to questions from Hon. Sherrod Brown........   121
    Written response to questions from Hon. Michael Bennet.......   122
    Written response to questions from Hon. Robert Casey, Jr.....   122
Wright, Jimmy:
    Written response to questions from Hon. Debbie Stabenow......   124
    Written response to questions from Hon. Patrick J. Leahy.....   125
    Written response to questions from Hon. Sherrod Brown........   126


 
                          NUTRITION PROGRAMS:

                  PERSPECTIVES FOR THE 2018 FARM BILL

                              ----------                              


                      Thursday, September 14, 2017

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 9:33 a.m., in 
Room 216, Hart Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present: Roberts, Boozman, Ernst, Grassley, Thune, Daines, 
Perdue, Strange, Stabenow, Brown, Klobuchar, Bennet, 
Gillibrand, Donnelly, Heitkamp, Casey, and Van Hollen.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning. I call this meeting of the 
Senate Committee on Agriculture, Nutrition, and Forestry to 
order.
    Over the last several months, I along with our Ranking 
Member Stabenow and our colleagues on this Committee have been 
working on a new Farm Bill. An important part of this process 
has been to hold hearings on each Farm Bill title and to listen 
to stakeholders.
    I am proud to say that the Committee has efficiently 
conducted our work in this area, having held hearings so far on 
eight titles. Today's hearing covers the nutrition programs in 
Title IV of the Farm Bill. Two titles remain.
    The reauthorization process affords us the opportunity to 
review the full range of USDA programs to ensure that they are 
operating efficiently and effectively. Not every program needs 
a major overhaul, but many Federal programs can benefit from 
increased efficiency, improved integrity, and the reduction of 
waste.
    As we conduct this review, it is important to remember the 
purpose of these critical nutrition programs. They are not 
about long-term dependency; they are about giving aid in times 
of trouble. They are about ensuring our nation's security, 
helping folks become productive members of our economy, and 
about assisting the vulnerable among us who cannot help 
themselves.
    Part of a thorough review includes verifying that the 
programs are being administered and implemented properly at the 
Federal and State levels.
    Now, unfortunately, we have learned of some significant 
issues regarding the administration and oversight of the 
Supplemental Nutrition Assistance Program, or what we call 
SNAP.
    Investigations by the Department of Agriculture's Food and 
Nutrition Service, the Department's Office of Inspector 
General, and the Department of Justice have revealed that 
States have purposely used, quote, ``whatever means 
necessary,'' unquote, to mislead the Federal Government to 
obtain bonuses or avoid financial penalties.
    Witnesses here today will provide details, but what we have 
discovered is that the integrity of the SNAP program cannot be 
verified. In all but a few States, the process used to measure 
errors has failed. Thus, the level of erroneous payments States 
have made when administering this program is completely 
unknown.
    Simply put, no one knows the error rate of SNAP, and that 
is unacceptable. The Federal Government does not even know the 
basic elements of the problem, such as how long this has been 
occurring.
    This program accounts for over 75 percent of Farm Bill 
spending. If we are unable to verify that this program is 
making every dollar count and ensure that the right amount of 
assistance is going to those who really need it, then something 
needs to change. With the help of the distinguished Ranking 
Member, something will change.
    We are not talking about rampant fraud here. We are not 
talking about rampant program abuse. We are talking about 
States cheating and gaming the system, resulting in an 
inability to even measure how many taxpayer dollars are being 
spent in error. This is not fair to taxpayers. It is certainly 
not fair to those who depend on this program, and it is not 
right.
    It is our duty to ensure that the integrity of this 
program, which is vital to those among us in need, is able to 
be measured and verified.
    Once that is accomplished, we must also ensure that this 
program is truly serving those in need, helping them to achieve 
self-sustainability, and not hindering their ability to 
succeed.
    Now, much has been made of the, quote, ``work requirements, 
but it is our job to be deliberative and informed when 
considering how we truly achieve the goal of enabling those who 
are receiving public assistance to attain self-sufficiency.
    Now, the last Farm Bill included a significant investment 
in work pilots to test effective methods of ensuring the long-
term success of folks in need of assistance. We will need to 
build on that investment and continue to test proven methods of 
success.
    As we undertake this process, with the goals of program 
integrity and truly helping people to become self-sustaining, 
we will need the support and flexibility of all program 
stakeholders.
    Lines in the sand and uncompromising positions will benefit 
nobody and especially not the vulnerable populations these 
programs serve. Working together, I am confident we can find a 
way to ensure the integrity of SNAP and the critical need that 
the program meets.
    With that, it is my pleasure to recognize Senator Stabenow 
for any remarks she may have, but before yielding, I would like 
to take a moment to express appreciation to the Department's 
Food and Nutrition Services and other agencies for their work 
in providing assistance to those affected by the recent 
tragedies with regards to the hurricanes that we have 
experienced in this country,
    I understand that Department's staff have worked around the 
clock to provide services and ensure that program participants 
and others have access to assistance in this time of need. I 
have received reports lauding the Department's preparation and 
response, and I would like to thank Secretary Perdue and his 
staff and for everybody involved for their dedication and hard 
work.
    It will take this same spirit of working together for us to 
remedy these and other issues that need to be addressed to pass 
a Farm Bill.
    Senator Stabenow, I yield to you for any comments you may 
make.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you, Mr. Chairman, and it 
continues to be a great pleasure to work with you. I want to 
start out with echoing the comments that you just made abouthe 
heartbreaking devastation that Hurricanes Harvey and Irma have 
caused in the South. These destructive storms underscore the 
critical need for disaster assistance for both our farmers and 
our families.
    I want to commend Secretary Perdue for his quick action to 
administer food assistance and provide flexibility for those in 
the path of these storms so that having enough to eat is the 
least of their worries.
    Our families deserve a reliable safety net in times of 
need. Whether it is making Disaster SNAP available during a 
hurricane or ensuring that a veteran can weather the storm of 
job loss during a recession, nutrition assistance programs are 
vital to rebuilding after disaster strikes.
    The Great Recession hit our country like a force of nature, 
causing too many Americans to lose their homes and jobs. For 
those who face unexpected unemployment, or underemployment, the 
Supplemental Nutrition Assistance Program is a short-term 
lifeline to keep food on the table while they look for a 
stable, long-term job that allows them to fully support their 
families.
    This is a point worth repeating: SNAP supports families. It 
is about America saying, ``We've got your back when there is an 
emergency.''
    Nearly half of SNAP recipients are children, as we know. 
The vast majority of SNAP recipients are children, seniors, 
people with disabilities, or parents and caregivers that live 
in these households.
    Approximately 1.5 million veterans receive SNAP at some 
point during the year, and many of these heroes are considered 
able-bodied, despite lasting challenges from their times of 
service.
    Even current military families face food hardship. Many 
utilize SNAP and visit food banks that are often stretched too 
thin to meet community needs.
    It is important that we keep these real people in mind, 
like Mr. Parker who is here today to share his story about the 
impact of SNAP in his life, and that is an important story. It 
is important to to reflect on other stories as well as we 
consider changes to nutrition assistance in the Farm Bill.
    As a Committee, we can make improvements to SNAP. We need 
to. We need to make improvements in every single area, and hold 
every single program in the Farm Bill accountable, as we should 
for every area of the Federal government. I will continue to be 
very focused on making sure that we are doing that while still 
preserving critical food access.
    As we know, we have a farm safety net and a family safety 
net. We need to make sure there is accountability in both and 
support for both. As prices go down in farm country while jobs 
have gone up for families, it is really important to note that 
we will see significant savings over the next 10 years in SNAP 
because things are working as they should, people are going 
back to work and needing less assistance with their food.
    In 2014, we made common-sense reforms to further strengthen 
the integrity of nutrition assistance. While nutrition programs 
have historically had an extremely low rate of error and fraud, 
we addressed rare cases of misuse while protecting benefits and 
eligibility for SNAP participants that needed access to the 
family safety net.
    We also included Employment and Training Pilots to allow 
States to test innovative strategies to help SNAP participants 
find stable, long-term employment.
    As we will hear today, these pilots, along with the broader 
SNAP Employment and Training Program, create important 
community partnerships to connect people to jobs and training 
that works.
    Rather than focusing on arbitrary cuts to push people off 
of needed food assistance, we should focus, as we have in the 
past, on the types of voluntary partnerships that help families 
succeed.
    As I indicated before, the good news is this is already 
happening. As the economy has improved and people are getting 
back to work, we certainly want the economy to move faster, so 
everyone has the opportunity for a good-paying job. But we are 
seeing savings in the nutrition programs. They are working as 
intended.
    The Congressional Budget Office recently estimated that the 
Farm Bill is projected to save $80 billion more than initially 
expected, largely driven by reduced spending on food 
assistance.
    Looking ahead to the next Farm Bill, we will also continue 
to look for ways that we can strengthen health outcomes in SNAP 
through efforts like SNAP Nutrition Education and the very 
successful Food Nutrition Incentive Program that has often been 
called Double-Up Bucks.
    We will also ensure that oversight of SNAP at the State and 
Federal level is working as it should.
    I look forward to hearing from the USDA and the Inspector 
General's office today on the steps that are already being 
taken to ensure accuracy and timeliness in SNAP.
    I also want to learn more about the ways we can support the 
work the Food and Nutrition Service is doing to strengthen the 
quality control program.
    Mr. Chairman, as always, I look forward to working with you 
as we move forward to put together a great Farm Bill and 
continue to fine-tune these programs while also protecting food 
access for millions of families.
    Thank you.
    Chairman Roberts. I thank the Senator.
    I welcome the first panel of witnesses before the Committee 
this morning.
    Mr. Brandon Lipps, Acting Deputy Under Secretary, 
Administrator, Food, Nutrition, and Consumer Services within 
the Department. Mr. Lipps currently serves as the Administrator 
of the Food and Nutrition Service, as well as the Acting Deputy 
Under Secretary of Food, Nutrition, and Consumer Services at 
the Department. As the FNS Administrator, he oversees 15 
nutrition assistance programs at the Department, including the 
Supplemental Nutrition Assistance Program.
    Prior to his time at the USDA, Mr. Lipps served as Chief of 
Staff in the Office of Chancellor Robert Duncan at Texas Tech 
University-home of the ever-passing, unsuccessful Red Raiders--
and led nutrition policy for the House Agriculture Committee 
during the 2014 Farm Bill.
    Welcome to you, sir, and I look forward to your testimony.
    Mr. Harden, Mr. Gil Harden, Assistant Inspector General for 
Audit with the Office of Inspector General. Mr. Harden is the 
Assistant Inspector General for the Audit at the Department of 
the Office of Inspector General. He currently manages all 
audits of the Department and previously has served in a variety 
of roles in audit work at the OIG headquarters. Mr. Harden 
began his career as an auditor with the Western Regional 
Office, and he also oversaw Performance and Financial Audits 
for the Northwest Region.
    Welcome, sir, and I look forward to hearing from your 
perspective.
    Lastly, we have Ms. Ann M. Coffey, Assistant Inspector 
General for Investigations at the Office of Inspector General. 
Accompanying, Mr. Harden to respond to questions is Ann Coffey, 
who also joins us from the Department of Agriculture Office of 
Inspector General. She has served as the Assistant Inspector 
General for Investigations ever since 2015. She began her 
career at the Office of Inspector General, subsequently worked 
as a special agent with the OIG and then went over to the 
Department of Homeland Security. Following her return to the 
Office of Inspector General in 2005, Ms. Coffey led the Special 
Operations Division and then the Investigations Liaison and 
Hotline Division.
    Welcome to you, ma'am, and I look forward to your 
testimony.
    Mr. Lipps.

  STATEMENT OF BRANDON LIPPS, ACTING DEPUTY UNDER SECRETARY, 
ADMINISTRATOR, FOOD, NUTRITION, AND CONSUMER SERVICES, FOOD AND 
NUTRITION SERVICE, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, 
                               DC

    Mr. Lipps. Good morning, Mr. Chairman, Ranking Member 
Stabenow, and members of the Committee.
    Let me start by thanking you for the recognition of 
Secretary Perdue's leadership in this disaster and the hard 
work of our staff, certainly at FNS, but Department-wide, as we 
work to protect agricultural infrastructure and make sure that 
all Americans are fed during this time. The staff really has 
worked overtime to ensure that everybody gets fed, and we 
appreciate that.
    I am honored to be here today to talk about the 
Supplemental Nutrition Assistance Program Quality Control 
system. As you stated, I am the Acting Deputy Under Secretary 
and Administrator for the Food and Nutrition Service. I look 
forward to working with this Committee to ensure those most in 
need have access to food by administering FNS programs 
efficiently, effectively, and with the utmost integrity.
    Working in partnership with State agencies, FNS programs 
leverage our Nation's agricultural abundance to ensure that no 
American goes hungry.
    You have invited me here today to talk about SNAP quality 
control, or as we often refer to it, QC. SNAP's QC system 
measures improper payments, often referred to as the payment 
error rate. This rate is a combination of payments that are too 
high and those that are too low. It is a measure of errors in 
issuing benefits, not the misuse of benefits.
    Quality control is a two-tiered system of shared 
responsibility between the States and FNS. States review cases 
for errors, and FNS reviews a sample of those to ensure that 
States have, in fact, made the correct determination.
    Typically, USDA releases a national error rate for SNAP on 
an annual basis. However, USDA and the Office of Inspector 
General both found bias in the QC data which prevented us from 
releasing a national error rate for fiscal years 2015 and 2016.
    FNS noted that rate reductions appeared to happen too 
quickly, like dropping off a cliff, making us question the 
integrity of the QC system. That led SNAP to create four 
different statistical errors to comb the data for bias. When 
FNS found that all eight States we looked at showed problems in 
all four categories, they quickly moved to an in-depth review 
of all 53 State agencies' QC data.
    The results surprised and greatly concerned our experts. 
Some States had made inadvertent process errors, but more 
often, States were hiding errors from Federal reviewers. In 
doing so, they bypassed our data controls, preventing SNAP from 
catching the bias until the new indicators were developed.
    Based on our findings and those from our colleagues at OIG, 
FNS began implementing corrective actions with these 42 States 
to eliminate the bias at the State level in late 2014. FNS has 
also made our own policies, guidance, and review processes more 
robust. We issued memos and guidance to States, revised our 
quality control handbook, provided additional training to 
Federal and State staff, developed a new management evaluation 
guide to strengthen our oversight, and made new data services 
available to validate State findings.
    Let me be clear, FNS owns our role in these problems and is 
taking strong action to solve them, but the most egregious 
problems we saw do not result from unclear guidance. For 
example, we learned that in some states, error reduction 
committees, which are intended to identify errors and prevent 
them going forward, were instead hiding the errors they found 
from FNS.
    The changes FNS has made to our QC system will make those 
behaviors less likely, but fully eliminating the bias will 
require a commitment of good faith on all sides.
    FNS has not released a national error rate since fiscal 
year 2014 because the data was unreliable. I fully expect to 
release an error rate for fiscal year 2017, in June of 2018, 
when these reforms and training efforts are fully reflected in 
the data.
    FNS is committed to continually improving the QC system and 
the integrity of SNAP as a whole. We will hold ourselves 
accountable and our State partners accountable.
    We look forward to working with you on additional solutions 
to prevent this problem in the future.
    Thank you, and I am happy to answer any questions.
    [The prepared statement of Mr. Lipps can be found on page 
56 in the appendix.]
    Chairman Roberts. Mr. Harden.

STATEMENT OF GIL HARDEN, ASSISTANT INSPECTOR GENERAL FOR AUDIT, 
 OFFICE OF INSPECTOR GENERAL, U.S. DEPARTMENT OF AGRICULTURE, 
                        WASHINGTON, DC;

ACCOMPANIED BY ANN M. COFFEY, ASSISTANT INSPECTOR GENERAL OF 
            INVESTIGATIONS, OFFICE OF INSPECTOR GENERAL, U.S. 
            DEPARTMENT OF AGRICULTURE, WASHINGTON, DC
    Mr. Harden. Good morning, Chairman Roberts, Ranking Member 
Stabenow, and members of the Committee. Thank you for the 
opportunity to testify about OIG's efforts to help FNS ensure 
the integrity of the SNAP program.
    With me today is Ann Coffey, the Assistant IG for 
Investigations.
    My statement today will focus on our audit of SNAP's QC 
process as well a related investigation.
    Through our audits and investigations, OIG helps FNS 
improve its general oversight of SNAP. Over the past 3 years, 
we have published six audit reports that resulted in 77 
recommendations and $299 million in monetary findings. Our 
SNAP-related investigations over the same period have led to 
over 2,300 arrests, 1,600 indictments, 1,500 convictions, as 
well as $296 million in monetary results.
    In 2013, OIG initiated an audit of SNAP's QC process. 
Though we recognize the improper payment rate for SNAP had been 
steadily declining, SNAP benefits had nearly doubled due to 
increased participation. Even at a low error rate, improper 
payments for SNAP still averaged over $2 billion annually.
    We found that confidence cannot be placed in FNS's reported 
error rate. For example, in all eight States we visited, 
private consultants and/or State error review committees used 
methods to mitigate case errors found during the QC process 
rather than report the cases as errors.
    A number of States hired third-party consultants who 
actively worked to eliminate errors and, therefore, improve the 
State's error rate. These States saw dramatic, if unwarranted, 
improvements in their error rates--from 21 to 85 percent, 
depending on the State.
    We also found other issues with how error rates were 
calculated. For example, State QC reviewers did not correctly 
identify and calculate payment errors during their review of 
SNAP cases. As a result, errors were improperly excluded from 
the SNAP error rate.
    Also, FNS did not adequately review State QC results. State 
QC results in 27 of the 60 cases we reviewed were unsupported, 
questionable, or inaccurate. As a result, FNS lacked the 
assurance needed to validate the accuracy of States' reported 
error rates, which serve as the primary basis for determining 
the SNAP national error rate.
    In total, we made 19 recommendations to help FNS improve 
the QC process. As of August 2017, FNS had closed 14 of these 
recommendations.
    One unique OIG investigation has highlighted significant 
problems with the QC process. Our investigators received a 
whistleblower complaint related to the activities of a third-
party consultant working in one State. So far, this 
investigation has resulted in two States, Virginia and 
Wisconsin, agreeing to pay over $14 million to resolve 
allegations about both States' administration of SNAP.
    Both States admitted that they used consultants to review 
the error cases identified by their workers. The consultant 
advised the use of several improper and biased QC practices, 
including finding a basis for dropping error cases from the 
review, selectively applying requirements and policies to 
overturn and reduce errors, and asking beneficiaries leading 
questions to obtain desired answers to eliminate error 
potential. These practices improperly decreased the States' 
reported error rate, and as a result, States were paid 
performance bonuses for which they were not entitled. This 
investigation is ongoing.
    I want to thank the Committee again for the opportunity to 
testify, and I am open to--welcome to any questions you may 
have.
    [The prepared statement of Mr. Harden can be found on page 
50 in the appendix.]
    Chairman Roberts. Thank you very much.
    Let me note that we appreciate the statements of Mr. Lipps 
and Mr. Harden, and Ms. Coffey is here for questions only.
    Thank you to Panel 1 for taking the time to join us today. 
I appreciate it, but what I have heard is extremely disturbing.
    The integrity of the largest food assistance program that 
spends over $70 billion a year is simply unknown.
    The OIG has found that the quality control process is 
broken and in need of reform, and not only that, but we have a 
number of States that have defrauded the Federal Government and 
are being investigated by the Department of Justice.
    Mr. Lipps, you stated that the 2014 error rate data raised 
questions at FNS. Once the agency completed its in-depth 
review, did you discover any indication of when bias entered a 
State's quality control process? Do you have a sense at what 
point the State error rates became inaccurate?
    Mr. Lipps. Senator, unfortunately, I cannot give you an 
exact answer to that question.
    We do have concern that bias has been in the system for 
quite some time. The OIG notes in its report that this 
consultant first started acting with States as early as--I 
believe it was 2004 when States' individual error rates started 
dropping dramatically. So I think there has been some level of 
bias in the system for over a decade.
    Chairman Roberts. 2004.
    Mr. Lipps. Yes, sir.
    Chairman Roberts. So we have a problem here that could have 
started 13 years ago.
    Mr. Lipps. That is correct.
    Chairman Roberts. The FNS review, Mr. Lipps, for fiscal 
year 2015 found that 42 out of 53 State and Territory agencies 
were improperly administrating the quality control process.
    A document referenced by the media indicated that the very 
preliminary estimates of the 2015 national error rate could be 
between 4 and 7 percent. Now, if that is the case, 7 percent 
would be almost double the 2014 error rate. Something is pretty 
fishy here.
    That was biased and would have indicated over $5 billion in 
error. Do you have any updated estimates for 2015?
    Mr. Lipps. Mr. Chairman, unfortunately, we do not. The data 
is so significantly biased that we do not feel we can provide 
you an accurate measure of that rate.
    Chairman Roberts. So you are basically saying that the data 
was unreliable, and so, therefore, you could not release the 
error rate for 2015 or 2016?
    Mr. Lipps. Yes, sir.
    Chairman Roberts. Do you have better data now?
    Mr. Lipps. We believe we will have accurate data with the 
ability to report a rate to you in 2017. As I stated in my 
testimony, we have entered corrective action plans with these 
42 States, and believe that the bias will be removed 
significantly, and our statisticians advise that we can get you 
an accurate rate for 2017.
    Chairman Roberts. Well, I appreciate that, but we have no 
idea how much taxpayer money was wasted. It could be $3 
billion. It could be $5 billion. It could be $10 billion.
    Mr. Lipps. Yes, sir.
    Chairman Roberts. I think it goes without saying, that is a 
lot of money.
    During the 2015 review, were States fully cooperating with 
FNS?
    Mr. Lipps. Senator, there was a range on that. Some 
certainly were. Many were not, and there were certainly some 
egregious practices that OIG recognizes in their report. Some 
States were not forthcoming with information with FNS staff, 
and we did have difficulty getting all of the information from 
all of the States.
    Chairman Roberts. Can you describe some of the difficulties 
for us?
    Mr. Lipps. For us to be able to perform accurate re-
reviews, we have to have the entire case file from the States. 
States did not all want to give us access to their data. 
Sometimes there are legitimate issues with us being able to 
access that data, and we need to work on those going forward. 
But we do believe that some of the States were intentionally 
keeping that data from us.
    We believe that some States had destroyed portions of the 
data that was part of their review before we came in to review 
those.
    Chairman Roberts. Is this an open investigation?
    Mr. Lipps. Yes, sir. There is an ongoing investigation that 
my colleagues at OIG might be able to comment on more 
thoroughly.
    Chairman Roberts. I understand the FNS did their own 
reviews of SNAP cases in 2016, while States worked to correct 
their processes. During the '16 case reviews, what level of 
error did you find? Approximately how much in improper payments 
does that indicate?
    Mr. Lipps. Senator, I would unfortunately give you the same 
answer, that we cannot give you an accurate measure.
    I do think as the rate reported in 2014 was 3.66 percent 
and we have noted significant bias, it is definitely above 4 
percent but could be significantly higher.
    Chairman Roberts. I recognize you just recently came on 
board of the Department. I think it was June. But it is 
absolutely imperative that we work together, the Department and 
all Committee members, to address these issues.
    Ms. Coffey, let me ask--the OIG noted that the 
investigation is ongoing, but Wisconsin and Virginia have 
settled with the Department of Justice. How many of the 42 
States that have had issues are currently being investigated?
    Ms. Coffey. Unfortunately, since it is an ongoing 
investigation and the States are considered the subjects, I 
cannot comment on the specific number, but it is multiple 
States that are involved in the investigation.
    Chairman Roberts. Multiple.
    Ms. Coffey. Yes, sir.
    Chairman Roberts. So it could be all 42? It could be 20? 
Bigger than a bread box? What are we talking about here?
    Ms. Coffey. I would say it is not all 42. That is what I 
can offer you at this time.
    Chairman Roberts. A significant number.
    Ms. Coffey. It is a significant number, sir.
    Chairman Roberts. Have you ever encountered a case like 
this where so many States had been defrauding the Federal 
Government?
    Ms. Coffey. Sir, I have been doing this job for a number of 
years, and I can tell you this is a unique situation. We have 
not encountered this type of an investigation previously in my 
experience.
    Chairman Roberts. We need a better adjective than 
``unique,'' but we will work on that.
    During your investigation, did OIG look into the 
information regarding pressure, pressure on State employees to 
use information from a consultant?
    Ms. Coffey. Sir, during the course of the investigation--
and I think that is also part of public knowledge--for the 
State of Virginia, there was allegations that pressure was 
placed upon the employees to adhere to the methods from the 
consultant company, and that is something that we did look 
into. However, we do not have jurisdiction to impact the 
employees within the State of Virginia unless it was a criminal 
matter, and in that--in this instances, within the State of 
Virginia, it was an administrative matter that was handled by 
the State of Virginia.
    Chairman Roberts. If States under investigation decide not 
to settle with the Department of Justice, what further action 
could occur?
    Ms. Coffey. I cannot comment specifically in this 
particular instance. However, just generally speaking, if there 
is a criminal or civil matter that we are working with the 
Department of Justice on, if we are not able to reach a 
settlement agreement, the next step typically would be that 
that matter would go to trial, either a criminal or civil 
trial, depending on the nature of the litigation.
    Chairman Roberts. So that number of States that we have 
indicated before--15, 20--we do not know, or you cannot comment 
on it. I understand that. The Department of Justice would enter 
into that.
    Based on your in-depth audit, what role do you believe the 
almost $50 million a year in State bonuses played in creating 
conflicts of interest?
    I am sorry. That goes to Mr. Harden.
    Mr. Harden. Mr. Chairman, we think the conflict of interest 
really stems from FNS's two-tiered process for the QC process 
where States and the Federal level are involved.
    What we found was that process is vulnerable to State abuse 
due to conflicting interest between accurately reporting the 
error rates and incurring what would be penalties or mitigating 
errors and receiving bonuses for exceeding the standards.
    We considered this a very inherent conflict of interest for 
the States, and it is why it led to us make the recommendation 
that they are still working on to look at that process and see 
if there is a cost-beneficial way to move away from the two-
tiered process to having either FNS do it alone or through a 
third party that is doing it independently.
    I would also want to recognize that as part of our working 
the audit, we know that this recommendation is not new, 
necessarily. It is something that was recommended back in 1987 
by an outside study that noted the conflict of interest that 
went on with the process.
    Chairman Roberts. So, basically, the program was 
incentivizing bad behavior?
    Mr. Harden. Yes, the stuff that we heard from State--State 
staff as we did our work they expressed concern with what the 
consultants were wanting them to do and training them to do, 
but some States said it was kind of a keeping with the Jones 
type of thing. They knew they needed to use the consultants to 
help get their error rates down or else they would not be in 
line for the bonuses. They recognized that their competing for 
the bonuses was an inevitable consequence of that.
    Chairman Roberts. So they were gaming the system.
    Can you describe what you found in your audit regarding the 
methods by which States tried to eliminate errors or otherwise 
improperly reduce their error rate? You commented on that to 
some degree, but could you expand on that?
    Mr. Harden. Yes. We found that the consultants were used to 
train the State QC staff on techniques that would exploit 
vulnerabilities in the process. They focused--the consultants 
focused their work on what--mostly on QC workers and how they 
could mitigate the errors rather than use the errors to improve 
the process, which is what the intended part is.
    They also very much encouraged the use of error review 
committees by States to eliminate the errors as opposed to 
working on solutions to make the program stronger.
    Chairman Roberts. How did the FNS respond to the 
recommendations from the OIG audit?
    Mr. Harden. I would say this was a very difficult audit. It 
is probably one of the most sensitive ones that I have worked 
on in my career, and I have been with OIG my whole career.
    But, in our typical fashion, we worked with the agency as 
we learned what we were learning through the process. We would 
sit down with the agency and make sure we understood what we 
were hearing and find out if there was any other information 
that we needed to consider.
    At the time we issued the report, we did not reach 
agreement on all the recommendations and the corrective actions 
to take, but I would like to say since that time, we have 
reached agreement on all 19 recommendations. They have reported 
out that they have implemented 14 of those recommendations and 
are working on the remaining five.
    So a number of the steps that Mr. Lipps referred to in 
terms of how they are improving the program are in line with 
the recommendations we made. So later down the road, when we 
take up reviewing this as a follow-up, we will look to see how 
effective those changes were.
    Chairman Roberts. But there was pushback prior to this 
latest better relationship that you had with FNS.
    Mr. Harden. Yes. There was pushback throughout the process, 
and I would say it is because of the sensitivity of the matter. 
It included discussions all the way up through the former Under 
Secretary level, but from my perspective and opinion, having 
discussions at that level is just part of the process that we 
do for any of our major audit work. We need to hear their views 
and how they think of things. We do not always agree, but we 
need to hear what they are having to say, talk those things 
out, and decide on proceeding on a path forward.
    Chairman Roberts. You noted in your testimony that in 
fiscal year 2013, SNAP had the highest participation level in 
the history of the program and yet had the lowest error rate. 
Still, $2.4 billion in error, that is not a small amount of 
money. Do you find record-high participation with a record-low 
error rate to be rather unusual?
    Mr. Harden. I would say that we were aware that the error 
rate was trending down, and it was--from what we learned as we 
did the QC audit, it was caused by a number of factors.
    One of those factors was FNS raised the error tolerance 
threshold in 2012 from $25 to $50 and which meant that anything 
below $50 as an error would not be reported, so that 
contributes to rates going down or having fewer errors.
    I also want to note that as part of the 2014 Farm Bill, 
Congress established that threshold in law and the way that it 
would be changed.
    But FNS also had policies that simplified things, like 
simplified reporting, which caused--or which did not require 
SNAP participants to report changes in income as frequently as 
they had before or had the case workers follow up on that. They 
would not know of different changes because they were not 
required to report them.
    Chairman Roberts. Thank you very much for your testimony.
    I apologize to my colleagues for going overtime.
    Senator Stabenow.
    Senator Stabenow. Well, thank you, Mr. Chairman. This is a 
very important, very serious issue that we need to address, and 
I do want to make it clear, this is about State reporting and 
what they are doing. This is not about individual people 
committing fraud. This is about what the States are doing in 
the system.
    Many cases, I know the errors are data entry errors, 
administrative mistakes, or may be what you as well certainly 
have found in terms of what they are doing to manipulate the 
system.
    But, Mr. Harden, I wonder if you could give us examples of 
the kinds of things that are counted as errors.
    Mr. Harden. I may have to get back to you with specifics 
because there are like 48 different things that they check as 
part of the QC process, and it is income levels. It is work 
history, if they are working.
    One of the problems that we have found with the work 
requirements is that when the States were checking the work 
requirements, it was not a requirement for them to check on 
that, and so sometimes they did not do the extra digging to 
find out about that. It is determining their status in terms of 
being veterans or--those types of things are the things that 
they are checking to see----
    Senator Stabenow. So it is how much they are really digging 
into----
    Mr. Harden. Yes, that was part of the problem that we saw, 
is that States were following the guidance that FNS provided, 
and the guidance that FNS provided, from what we found and made 
recommendations about, was contrary or different than what was 
in the regulations. So they were following what was in the 
handbook, but the handbook did not agree with what the 
regulations say.
    Then, as the follow-on to that, the Federal reviewers at 
FNS were not really digging into and making independent 
assessments on what the States did. So there was not that full 
review that was necessary to know if the benefit amount that 
was given was correct.
    Senator Stabenow. Great.
    By the way, Ms. Coffey, thank you for being in here. I 
understand you are here for the tough questions, so chime in, 
please, at any time if you want to add anything. Did you want 
to add anything as it relates to the type of errors?
    Ms. Coffey. I can comment a little bit about what Gil said. 
He is much more the expert as to specifically what they are 
checking for, but obviously, what we did see from the 
investigation side, as noted in the two public settlements, is 
that there was definitely encouragement on the part of the 
third-party consultants to misrepresent facts to the Federal 
authorities when they were submitting information to FNS in 
efforts to lower their payment error rate, things like 
stretching their income as expenses and altering documents of 
that nature.
    Senator Stabenow. Okay, the State was doing this. This is 
very serious.
    Ms. Coffey. That is correct, the State.
    Senator Stabenow. Thank you.
    Do errors reflect both overpayments and underpayments, as I 
understand?
    Mr. Harden. Yes.
    Senator Stabenow. Yes. So it could be--it could be either.
    Mr. Harden. Yes.
    Senator Stabenow. When there is an overpayment error, do 
the States, when they recoup the payment, which I understand 
they go back with an over payment, and they recoup the dollars, 
that counts as an error still? Correct?
    Mr. Harden. Yes, it should. But one of the things that we 
saw was that whenever the States QC reviewers would have 
identified an error over or under, they were not necessarily 
communicating that back to the case workers or the people that 
would carry out--actually pursuing that repayment.
    Senator Stabenow. So there is an overpayment.
    The same if there was an underpayment and they corrected 
that----
    Mr. Harden. Correct.
    Senator Stabenow. --that counts as an error?
    Mr. Harden. Yes.
    Senator Stabenow. They should be reporting that----
    Mr. Harden. Yes, ma'am.
    Senator Stabenow. --as an error, even though it has been 
corrected?
    Mr. Harden. Yes.
    Senator Stabenow. That they should be counting that, 
absolutely.
    So, Mr. Lipps, the USDA has issued several memos and 
undertaken a variety of things to correct the bias that you 
talked about with quality control system. Anything else you 
would want to describe to us in terms of the steps that have 
been taken, and do you believe that FNS will be able to issue 
reliable error rates for the fiscal year 2017?
    Mr. Lipps. Thank you.
    I do think the most significant change is the corrective 
action plans that we have entered into with the 42 States, so 
we have identified where they were entering bias into the 
system, and we have required them to report to us how they are 
going to change that. We are following up on those with States.
    So following through on those plans is what gives our staff 
confidence that they are going to be able to report a rate for 
2017, and I have asked that question as many different ways as 
I can, and I am assured we will get you a rate.
    There are a number of other important factors. I talked in 
my testimony about how we are not only changing our management 
model, but our training for our QC reviewers and ensuring the 
States are doing the same for theirs.
    We are requiring that any contracts with a third-party 
consultant with regard to QC reviews are reviewed by the FNS 
national office before they move forward to make sure they are 
not entering into a contract to receive the types of advice 
that they have received in the past. We want to limit that to 
legitimate process-oriented work.
    I also want to say thank you. Congress provided us $4 
million in 2016 to hire 32 extra reviewers at the Federal 
level. I do think one of the issues is that our Federal 
reviewers were expected to review between 6-and 700 cases a 
year, which was not allowing them to dig as deeply as they 
needed to, and we certainly should have looked at that as an 
internal resource issue at FNS but appreciate the extra funds 
that you have provided for those FTEs, and we will ensure that 
they are working hard on that.
    Senator Stabenow. Along that line, because OIG has 
recommended moving away from the two-tier system to a single-
tier system and in looking at that, it does raise questions. 
Would USDA need additional staff and resources to be able to 
move to a single-tier system?
    Mr. Lipps. I do not have a specific answer on that, Ranking 
Member Stabenow, but I certainly would expect that we would.
    The two-tier process should work, if administered properly. 
We have let a contract with an outside entity to look at this 
issue, and we will report back to you as soon as we get that 
information from them.
    Senator Stabenow. At this point, given what is happening in 
the focus and--the needed focus on all of this and the actions 
that are being taken, do you feel that additional legislation 
is needed to fix this, or are we talking about additional 
resources to support what the Department is currently doing?
    Mr. Lipps. As we have talked about, we have made 
significant internal changes, and we believe that that will get 
us to a corrected error rate.
    I think we want to be careful that in the future, we do not 
end up back in this place, and we certainly want to work with 
you on any ideas that you may have with regard to legislation 
to make sure that this does not happen in the future, whether 
that regards for resources or a change in how this process 
works.
    Senator Stabenow. Thank you very much.
    Mr. Lipps. Thank you.
    Senator Stabenow. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, and thanks to our 
witnesses here today.
    Mr. Lipps, I would like to start with you, please.
    The USDA administers a handful of the over 80 different 
Federal programs designed to serve low-income Americans, and 
according to the GAO, these programs are too fragmented and 
overly complex for clients to navigate, for program managers 
and policymakers to assess program performance.
    What steps is the USDA taking to better coordinate with 
other agencies to make the safety net more cohesive?
    Mr. Lipps. Senator, we have not taken significant steps 
since my arrival, but I will assure you that we do intend to do 
so, both within the 15 programs that we administer and outside 
of those.
    With regard to what these reviewers have to look like, 
application to this program, I would say is akin to filing a 
tax return. We have to look at income deductions, expenses, and 
then we have additional questions of whether they are complying 
with work requirements. These are very difficult processes, and 
we are always looking at ways to make sure that those eligible 
have access while we are making sure that we have integrity in 
the program. It is always a difficult balance, but I think 
allowing programs, to work across, help on that.
    There are other agencies around the government that have 
access to data that we do not have at FNS that can be helpful 
in that, and so we hope to be working with you all on resolving 
some of those in the future.
    Senator Ernst. Yes, I hope so.
    It is a complicated area, and I think by linking many of 
our agencies together and nesting their skills and abilities 
together, not only can we better assist the Americans that need 
these support systems, but also stop, maybe, some of the fraud 
that might exist out there. So I would just encourage you to 
continue working with other agencies in those areas and also 
improve that coordination.
    Despite over 80 programs and billions and billions of 
taxpayer dollars that have been spent, the Federal Government 
just oftentimes fails to address the barriers to self-
sufficiency faced by those that are currently living in 
poverty.
    Just a plug for one of my bills, earlier this year, I 
introduced the EMPOWERS Act, and that is a bill that would 
allow States to pursue pilot projects that integrate certain 
programs and better address the challenges that are faced by 
low-income families and individuals, but that does require a 
lot of these agencies working together to find a better way 
forward.
    So we are always looking for efficiencies out there and 
ways to prevent fraud and abuse within the system.
    Mr. Harden, SNAP is one of the largest benefit programs for 
those in need, and the OIG findings are very, very concerning. 
I think you have heard that over and over again from this 
panel.
    What specifically can we do as Congress, especially with 
the Farm Bill coming up? Are there ways that we can address 
these types of systems through any legislation, beyond rules 
that might be able to address it in the agencies?
    Mr. Harden. We would continue to have conversations with 
FNS as we go through this, but as a result of our work in the 
QC process, we did not see the need for any necessary 
legislative change. It was just a matter of applying the rules 
and regs that were already there.
    We do--as an OIG, if we see the need for legislative 
change, we do make those recommendations to agencies and have 
them work through their process for putting them forward. We 
also make sure that we advise committees that we have made 
those recommendations too, but we did not see that this time.
    Senator Ernst. Thank you. I appreciate that.
    Mr. Chair, I would thank you for raising this attention--or 
to our attention here at this level. Thank you for the proper 
oversight necessary for the program to be successful, and with 
that, Mr. Chair, I will yield back my time.
    Chairman Roberts. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. chairman.
    Chairman Roberts. I am sorry. Senator Casey. I apologize.
    Senator Gillibrand. That is okay.
    Senator Casey. Mr. Chairman, thanks very much. Thanks for 
this hearing.
    I want to thank our witnesses.
    I want to start with the value of the SNAP program in a 
State like Pennsylvania, a big, diverse State with a lot of 
economic challenges. We have got, for example, in our State, 
SNAP helping 1 in 12 workers in the State put food on the 
table. That means roughly more than 507,600 Pennsylvania 
workers live in households that participated in SNAP in the 
last year. That is what the Census data tells us.
    I spent 10 years in elected office in Pennsylvania, 8 of 
those as a State auditor general, which meant that I was on a 
daily basis kicking the hell out of State programs that were 
not efficient, effective, and in some cases wasting taxpayer 
dollars.
    So we have, I think, an enduring obligation to make sure 
that every program measures up to the expectations of 
taxpayers. That is why this hearing is so important.
    At the same time, I think there are some folks in 
Washington--I do not think anybody on this Committee, but some 
folks that use examples of waste, fraud, and abuse, or error or 
overpayment or whatever the description is, to take a meat ax 
to programs and just hack away at them while allowing other 
programs to be sacrosanct from that same kind of 
accountability.
    My question involves what can we do to make sure that what 
I am told is a payment error rate for fiscal year--I guess, is 
the most recent fiscal error rate for fiscal year 4? Is that 
correct?
    Mr. Lipps. Yes, sir.
    Senator Casey. That is 3.66 percent; is that right?
    Mr. Lipps. Yes, sir.
    Senator Casey. So, with that number in front of us, we have 
got to make sure that we are bringing that number down even 
more.
    I realize States, because they are dealing with the so-
called QC program, may not measure error rates either fairly or 
consistently. So we have got to make sure that we are holding 
them accountable.
    I direct this to you, Mr. Lipps. What action can we take to 
ensure that our systems drive meaningful improvement as opposed 
to just improving the measure?
    Mr. Lipps. Senator, I think there are a lot of different 
sides to that, but I do think that improving the QC rate is 
really about improving the program as it is delivered to the 
recipients.
    It is--we talk a lot about the money that is wasted for the 
taxpayer, and it is a very important factor in this. But, as 
you say, it is extremely important for the recipient.
    If your QC rate is zero, you are delivering the payment 
that every recipient deserves. That is really what this 
question is, and so the lower we get that to zero, the better 
job we are doing of ensuring that each recipient is getting the 
money that you intended them to have.
    Senator Casey. How do you think we arrive at that point? 
What is the best way to get there?
    Mr. Lipps. I think we always work for a lower error rate. I 
think these things that I have talked about that FNS has taken 
actions on with regard to working with States in our oversight 
to ensure we get there, it is a--it is a partnership between 
the Federal government and the States, and we constantly have 
to work on this issue.
    As you know, there are a lot of State options, and that is 
the significance of States being involved in this process, is 
that they know theirs well. But we want to make sure that each 
State has the ability to adapt to best serve their citizens.
    Senator Casey. The last question I have is with regard to 
the bonus and penalty system. I guess the report, among other 
things, indicates that both bonus and penalty contributed to 
the problem. Do you think there is a need to reevaluate that--
reevaluate both, I guess I would say?
    Mr. Lipps. There has been a lot of discussion on that 
issue, and we look forward to engaging with you on that. States 
have certainly said that both of those influenced their actions 
in this.
    Senator Casey. Great. Thank you very much.
    Mr. Lipps. Thank you.
    Chairman Roberts. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    I would like to follow up on the bonus situation. In the 
2012 Farm Bill, I offered an amendment on the floor that would 
strike the State bonuses for low error rates, money that is 
used to encourage the States to do something that they ought to 
be doing, anyway, and would reinvest those savings into the 
Emergency Food Assistance Program.
    As the OIG report shows, these bonuses obviously created an 
incentive for States to submit false error rates to FNS.
    Mr. Harden, do you think that Congress should do away with 
the bonuses?
    Mr. Harden. I mean, in terms of us looking at the program, 
I do not want to say what the policy should be, because that is 
kind of not the auditor's role, but we did note that that was a 
big part of the conflict of interest at States when they were 
looking at themselves and trying to--they were--they used the 
consultants, and they knew that if they got lower error rates, 
they would be getting better bonuses. So it did incentivize 
them to get the error rates lower in a variety of ways.
    Senator Boozman. Okay. Very good.
    So that is a nice way of saying that there is a significant 
problem there.
    Mr. Harden. Yes, sir.
    Senator Boozman. Mr. Harden, as you stated in your 
testimony, OIG made 19 recommendations intended to assist FNS 
to improve their quality control process. Could you briefly 
summarize some of the recommendations? Do any of those 
recommendations carry more weight than others, and if so, which 
ones are they? Has FNS addressed them to the satisfaction of 
OIG? Of the five that FNS has closed out, what has been the 
delay? I know that is a lot.
    Mr. Harden. Yes. I think the most significant 
recommendation that we had in the report is the first one that 
talks about looking into the cost benefit of whether we should 
move away from the two-tier system.
    I know that FNS is acting on that right now. They have a 
request for proposal out and comments and are looking at that.
    A two-tier process can work, but it has to be managed the 
right way, as Mr. Lipps has said. But that is something we 
definitely wanted them to look at.
    A lot of our other recommendations, they are also moving 
out on and have implemented in terms of making sure there is 
guidance out there if you are going to use consultants, because 
there was not guidance in place before, clarifying guidance for 
State QC workers in terms of how they are supposed to carry out 
their QC reviews, as well as redoubling their efforts on the 
Federal review process and making sure that they had the right 
type of oversight from the Federal level to really look at the 
cases that the States were doing and asking the proper 
questions.
    So there are only five that they are continuing to be open 
and have not reported back to the Department that they have 
implemented, and I think the one that will take the longest is 
the one on the two-tier process, which I think is expected 
currently to be put in place by next year.
    So we would then follow up usually after an agency has had 
a chance to implement the recommendations, say 18 to 24 months 
afterwards, so we would definitely be looking at this probably 
in the 2020-2021 audit cycle.
    Senator Boozman. Very good.
    Mr. Lipps, what is the timeline to get the five closed out?
    Mr. Lipps. I do not have exact dates on those, Senator. I 
think we are very close on each of them. We have worked with 
OIG to move forward.
    Obviously, on the question of the one-tier system, we have 
that contract, and it is going to take some time to do the 
analysis and get it back. So it will be at least a year on that 
issue.
    Senator Boozman. So what do you say is the biggest 
challenges facing FNS as you make changes to implement OIG's 
recommendations and improve the accuracy of the SNAP error 
rate?
    Mr. Lipps. Senator, I think the biggest challenge is making 
sure that States are good partners in this and that they are 
working with us to a valid QC rate.
    I think the work of OIG and DOJ has encouraged them to do 
so, and we will continue to be good partners with them.
    What I want to commit to you from within the agency is that 
we re-review our QC oversight regularly so that we do not end 
up in the situation again.
    Senator Boozman. Good.
    Thank you, Mr. Chairman, and thanks to the panel.
    Chairman Roberts. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    I am very grateful that we are holding this hearing. I know 
everyone on this Committee is very determined to fight poverty 
in our country, and we all know that SNAP is one of our most 
effective tools to do that.
    SNAP can lift families out of poverty, can drive down 
health care costs, and improve people's health. It can help our 
children stay focused at school, and it can improve the lives 
of our most vulnerable citizens.
    The data are very clear that SNAP plays an enormous role at 
giving low-income Americans access to the nutrition they need, 
and SNAP helps Americans in every community and our cities, our 
small towns, and our rural communities. Even as SNAP 
participation drops, we must remind ourselves that there are 
millions of Americans who are working hard but still do not 
earn enough to buy the food they need, and so they rely on 
SNAP. SNAP is an essential program, and it is a program that 
works.
    So I want to thank the witnesses today for their testimony 
and to work to make SNAP serve Americans more efficiently and 
effectively.
    Concerning the SNAP standard medical deduction, many of 
your concerns raised about quality control in this morning's 
hearing are about how different State agencies conduct their 
reviews of client paperwork.
    I have recently introduced the SNAP Standard Medical 
Expense Deduction Act of 2017, that would standardize the 
deduction for seniors and disabled individuals with high 
medical costs. Would more uniform and simple deductions like 
this help make QC easier for the State agencies and FNS to 
verify? Any of you.
    Mr. Lipps. Senator, we look forward to working with you on 
that. Certainly, standardizing things makes the QC process 
easier and the certification process easier. We are just always 
balancing, making sure folks get the benefits that they need 
and the right amounts when we standardize those things, and I 
am happy to visit with you further about that.
    Mr. Harden. I would tend to agree that if it can be 
standardized, it is usually helpful, and then it can be 
consistently implemented.
    Senator Gillibrand. Any thoughts, Ms. Coffey?
    Ms. Coffey. I will defer to my colleagues at the table, but 
yes, obviously standardization, even from the criminal 
investigative side of the house, is helpful for us when we are 
doing our reviews and investigations.
    Senator Gillibrand. Mr. Lipps, we are hearing a lot about 
how SNAP participation rates are falling as the economy 
recovers. In New York, SNAP participation rates dropped 2 
percent in a year. However, not every community recovers as 
quickly.
    The national rate of SNAP participation in rural counties 
is 16 percent, which his 3 percent higher than cities. What 
steps is FNS taking to coordinate with State agencies, and what 
has been done to ensure that rural SNAP recipients, who may 
face transportation issues, can submit their paperwork?
    Mr. Lipps. Senator, one of the great things about SNAP 
being administered by the States is it allows them the 
flexibility to make sure that they are serving their cities. 
Obviously, some of our States are overwhelmingly urban, and 
some are overwhelmingly rural, and some with a combination of 
both.
    So we look to the State agencies to make sure that they are 
serving all those populations, and in our technical guidance 
and overview with them, we want to make sure that everybody is 
getting served.
    Senator Gillibrand. Just to clarify some of our earlier 
testimony, one of my colleagues referred to this as incidence 
of fraud. I do not understand that there is any allegations of 
fraud with regard to these paperwork concerns. Is this an issue 
of fraud, or is it mismanagement?
    Ms. Coffey. So the investigation is actually--the 
settlement agreements were put in place to settle claims of 
False Claims Act, so yes, that is a deliberate act on the part 
of the States to provide information that is not--we would 
consider to be fraudulent.
    Senator Gillibrand. So did you file a case against various 
States for fraud?
    Ms. Coffey. So there are two settlement agreements we 
worked with the Department of Justice on. For our purposes, 
whenever we have an allegation within the--in fact, the 
Inspector General's office on my side, we are obligated to go 
to the Attorney General as part of the IG Act, and so we did 
pursue that avenue. As a result, yes, the settlement claims 
that you see, they were not criminal, but they were civil 
matters that were taken up by the Department of Justice.
    Senator Gillibrand. Are you able to tell us what States?
    Ms. Coffey. At this point, I can tell you there are two 
that are public, but because this is still ongoing--the two 
that are public are Wisconsin and Virginia settlement 
agreements, but I cannot comment on the other ones because 
those are still in process as this time.
    Senator Gillibrand. Can you describe, for the two that are 
public, why you believe it was intentional fraud?
    Ms. Coffey. I think based upon the information that was 
submitted to FNS as well as we do a lot of work relative to 
interviewing individuals, State employees. The complaint 
originally came in from a State employee who was concerned 
about how the materials were being provided to FNS. All those 
factors play into whether or not we have a determination of 
whether there may be fraud present.
    Senator Gillibrand. Thank you.
    Chairman Roberts. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman, and again, thank 
you for this hearing. I think it is critically important that 
instead of waiting for the reauthorization process for the Farm 
Bill that we start talking about these issues in developing 
some strategies and techniques.
    I just want to kind of get back to Senator Gillibrand's 
line of questioning, which is fraud, because I think if 
people--if the headline is the Inspector General finds fraud in 
the SNAP program, people are going to automatically assume that 
that was widespread fraud by applicants.
    So if we can just clarify what we are talking about and 
who--let us just be charitable and say the misunderstandings 
were with the State, I think it would be really important that 
we make sure that we understand what we are talking about here.
    Ms. Coffey?
    Ms. Coffey. From the perspective of the States, typically 
what we see in many of the overpayment--or the payment error 
rate, it is administrative errors or mistakes that have been 
made, and that is really the majority of what you see within 
the program.
    However, in this particular instance, it is clear that 
there is a pattern. That it has been established utilizing 
these third-party consultants to basically look to change 
information that normally States would be reporting to FNS, and 
that information has either been withheld in some circumstances 
or altered in some fashion or guidance has been given out to 
State employees to not follow up on certain pieces of 
information. That is very different, I think, in terms of what 
you see typically with payment error rates.
    You are seeing this is a really overt act on the part of 
the consultants and the States that obviously we have 
identified thus far, so there is a distinction there.
    Senator Heitkamp. But it is fraud in establishing the 
review process, or it is fraud in putting more people on the 
program, on the SNAP program, who are unworthy, or we do not 
know whether they were unworthy or not?
    Ms. Coffey. It is basically we cannot say----
    Senator Heitkamp. Right.
    Ms. Coffey. --because the information was not accurately 
followed up upon.
    Senator Heitkamp. Right.
    So I just want to clarify that what we are talking about 
when we talk about fraud and mismanagement is at the State 
level, where they are administering this program. This is not 
to imply that there is widespread applicant fraud, where the 
applicant--maybe somebody said, ``Well, I think this person 
probably has 1099 income that was not reported,'' no follow-up 
on the 1099 income that was not reported. You do not know 
whether that is true or not because the States have not taken 
the steps that they should have taken to do the investigation 
and, in fact, allegedly, covered up the missteps that they had 
in terms of administering the program. Is that a fair 
characterization of what we are talking about?
    Ms. Coffey. Yes, it is.
    Senator Heitkamp. Okay. So I just want to make sure that--
we take very seriously this program, and access to this program 
is essential. It is essential for people who live below the 
poverty line. It is essential for seniors. It is essential for 
our recovering and veterans who are coming back who are 
struggling with the transition back into civilian life.
    So we do not want a headline coming out of this saying 
there is widespread fraud, and it is really unfortunate that 
the States have not followed the proper procedure. I will bet 
if we had them in here, they might argue that they did and that 
they just want to put this behind us and that there was not a 
problem.
    The fact that the Department of Justice has chosen to not 
take this criminal, I think is an indication that we need to 
ratchet down the rhetoric on how we look at this. Do you think 
that is a fair characterization?
    Ms. Coffey. I believe it is, and that is part of the reason 
we do not talk about the States that are currently under review 
in the investigation, because we do not want to unfairly accuse 
anyone or anything at this point.
    Senator Heitkamp. I would argue that the Federal 
administration of these programs, not the Inspector General, 
but the Federal administration of the program not setting broad 
guidelines, not auditing and appropriately overseeing the State 
administration of these programs has led--and I see Mr. Harden 
nodding his head--has led to the confusion and has led to this 
problem.
    So I think there is opportunity for criticism all around. 
Is that a fair characterization?
    Mr. Harden?
    Mr. Harden. Yes, it is.
    Senator Heitkamp. Mr. Lipps, I know you are new to this, 
this business. I hope you are taking this all in because it is 
not going to be okay with me. As somebody who was a State 
official who worked with Federal programs, who may have gotten 
dinged on an audit--cannot remember if I did or not, but I know 
there are other ways to look at it. It is really important that 
we not throw out the baby with the bath water, not have a broad 
statement that there was widespread fraud, waste, and abuse in 
the SNAP program, but that we take the information that we have 
gotten today and change outcomes by being more directive and 
looking at solutions like Senator Gillibrand's bill.
    So I look forward to working with this Committee as we move 
forward with the Farm Bill.
    Thank you, Mr. Chairman, for the extra 25 seconds. Senator 
Boozman did not use up all of his, so thank you, Senator 
Boozman for those 30 seconds.
    [Laughter.]
    Chairman Roberts. Anytime, Senator. Anytime.
    Senator Heitkamp. Thanks.
    Chairman Roberts. I would say that there are some 
disturbing things with regards to fraud and the people involved 
and the States involved, and there is about three things.
    The integrity of the largest food assistance program that 
spends over $70 billion a year is unknown. That is not 
acceptable.
    The Office of Inspector General has found the quality 
control process is broken and in need of reform, and you are in 
the business of doing that.
    We have a number of States that have defrauded the Federal 
Government and are being investigated by the Department of 
Justice. They are gaming the system.
    Senator Boozman had an amendment that would have taken care 
of that to some degree, but in determining how many, that it is 
an open investigation. Ms. Coffey is correct in stating that 
and only that, but we do not know--we know two, but there are 
42. That is no small number in terms of people who are gaming 
the system. The people who are gaming the systems--or the 
States who are gaming the system, there are people in charge of 
that, and now we are hearing primarily, ``Well, it was the 
consultants, and maybe these States got together and figured 
out how to do that.'' Maybe somebody in the Department knew 
that; maybe they did not. I think that is to be determined, but 
this is a very serious problem. I do not think it should be 
understated.
    Senator Stabenow. Mr. Chairman, if I might just jump in 
here with you as well to agree that this is a very serious 
problem, and to underscore what Senator Heitkamp and Senator 
Gillibrand were addressing on this, because in my line of 
questioning, you indicated if there is an overpayment, it is 
corrected, but it's still counted as an error. If there is an 
underpayment corrected, it is still in error. What we have are 
States who want to get bonuses, who have not been reporting as 
they should be reporting, and so we know that corrections are 
made on underpayments, overpayments, other kinds of things. We 
need to do a better dive, deep dive. USDA needs to have the 
staff to be able to do that and do what OIG is recommending.
    But I agree with you. We have got to look at the bonuses 
and incentives, and if the incentives are creating a situation 
where we are not getting accurate reporting on errors and what 
has been corrected and so on, then that is a big problem, and 
so thank you.
    Chairman Roberts. I would make one other point before we 
get to the second panel. In 2009, the improper payment rate--
let me point out that is an improper payment rate. That is 
money that should not have been spent. 2009, that rate of a 
percent was 4.36. That is about $2.2 billion. 2010, 3.81, that 
is about $2.5 billion. 2011, 3.8, that is about $2.7 billion; 
'12, 3.42, that is $2.5 billion; 2013, 3.2, that is $2.4 
billion; and 2014, 3.6, $2.5 billion. Then, for some reason, we 
do not have any numbers from 2015 and 2016 because the method 
of determining the error rate was very questionable. But if it 
is 2 percent, it is about 1.4 billion for $70 billion. If it is 
5 percent, that is 3.5 billion. If some of the States would 
have a 10 percent error, that may or may not be true, probably 
not, but that is $7 billion. Fifteen percent--I am not going to 
go there, but I will say it anyway, $10.5 billion. This is a 
major problem.
    Over the life of a Farm Bill, 6 years, 5 years, I mean, we 
are talking an awful lot of money, and that is not acceptable. 
That is the gentlest way I can put that.
    Let us go to Panel 2, please. Thank you, Panel 1. I 
appreciate your testimony. Welcome to the second panel.
    Thank you to our second panel of witnesses. First, we have 
Mr. Sam Schaeffer, the Center for Employment Opportunities. Mr. 
Schaeffer is the Executive Director and the Chief Executive 
Officer of the Center for Employment Opportunities, or CEO, in 
New York. Since 2009, he has worked to expand employment 
services provided by CEO to 18 cities in Oklahoma, Colorado, 
Ohio, Pennsylvania, California, and New York. Mr. Schaeffer 
previously served as the director of Economic Development for 
Senator Schumer.
    Welcome, and I look forward to your testimony, sir.
    Next, we have Mr. Bryan Parker of the Community Food Bank 
of Eastern Oklahoma. Mr. Parker joins us today from Tulsa on 
behalf of the Community Food Bank of Eastern Oklahoma. He is 
currently enrolled in the Lobeck Taylor Culinary Trade Program, 
which provides training and professional skills for the 
restaurant industry. Previously, Mr. Parker served in the Navy 
on the U.S.S. Midway. Thank you for your service. Semper Fi for 
all the marines that you helped--and ran a small business in 
Japan for more than 20 years. Domo arigato.
    Thank you for being here today, and I look forward to your 
testimony.
    Mr. Jimmy Wright of Wright's Market. I would like to 
welcome the witness from Alabama, Mr. Jimmy Wright. I know that 
the Senator from Alabama, Luther Strange, is extremely proud of 
the great work that you are doing in Alabama. We are all 
excited to hear from you today. Mr. Wright is the owner and 
president of Wright's Market. Opelika? Did I nail that? 
Opelika, Alabama. Under his leadership, the store expanded from 
a small convenience store to a 22,000-square-foot supermarket. 
Mr. Wright is an active member of his community, serving as 
president of the Opelika Community Development Corporation, on 
the board of East Alabama's food bank.
    Welcome, sir, and I look forward to hearing your 
perspective.
    Fourth witness is Dr. Diane--``Schanzenbach''?
    Senator Stabenow. Schanzenbach.
    Chairman Roberts. Schanzenbach.
    Senator Stabenow. Yes.
    Chairman Roberts. Pardon me. She is our fourth witness. She 
is the director of the Institute for Policy Research at 
Northwestern University and--oh, I am sorry. You are to 
introduce her.
    Senator Stabenow. That is totally fine. Mr. Chairman, 
whatever you would like to do is totally fine.
    Chairman Roberts. Why don't you go ahead. I apologize.
    Senator Stabenow. Thank you. Thank you very much.
    Chairman Roberts. It only took two taps on the shoulder for 
me to understand that you were going to introduce----
    [Laughter.]
    Senator Stabenow. No, no, no. Either way is fine.
    Dr. Diane Schanzenbach, you are so important, both of us 
are introducing you, so we are very pleased that you are here. 
Director of the Institute for Policy Research and the Margaret 
Walker Alexander Professor in the School of Education, Social 
Policy, at Northwestern University in Evanston, Illinois. Dr. 
Schanzenbach is also research associate for the National Bureau 
of Economic Research. In this role, she studies policy aimed to 
improve the lives of children in poverty, with her recent work 
focus on tracing the impact of SNAP and early childhood 
education on children's long-term outcomes. Dr. Schanzenbach 
was formerly the director of The Hamilton Project at the 
Brookings Institution, and received her PhD in economics from 
Princeton University.
    Welcome.
    Chairman Roberts. We are going to----
    Senator Stabenow. One more person.
    Chairman Roberts. I understand that. One, two, three, four, 
five.
    Chairman Roberts. That is right.
    Chairman Roberts. I got this.
    Senator Stabenow. Okay. Good. I got your back here.
    [Laughter.]
    Chairman Roberts. I am going to recognize Senator Strange 
with regards to Mr. Wright, as I know you want to have an 
opportunity to say something on his behalf, sir.
    Senator Strange. Thank you, Mr. Chairman. I apologize for 
being late.
    Have you had a chance to introduce him, or should I?
    Chairman Roberts. Well, I have already introduced him, but 
I think you could certainly add to that.
    Senator Strange. Well, I am glad to add to it because it is 
a rare opportunity to introduce not only a fellow Alabamian, 
but a friend to this panel. What Jimmy Wright is doing is 
creative. It is cutting-edge. It is going to benefit a lot of 
people. I am very proud to have visited Wright's Supermarket. I 
know it well. It is a true place of Southern hospitality, but 
of creative thinking about how to serve a population that 
desperately needs to be served. I am proud that Jimmy is my 
friend. I am glad he is here, and the whole area that he is 
involved in is important to me.
    When I was Attorney General, I had the opportunity to 
encourage our food banks with a challenge to lawyers across our 
State that I think has been particularly effective in 
restocking them during the summer months, so it is a team 
effort. Jimmy, I am glad you are here. I look forward to your 
testimony.
    Chairman Roberts. We thank the Senator.
    The last witness is Mr. Brian Riendeau. Did I get that 
right? I am close. All right.
    Senator McConnell was to introduce you, sir, but he cannot 
attend at this particular time. So you have served as the 
executive director at Dare to Care Food Bank in Louisville, 
Kentucky, since 2009. You oversee the delivery of more than 19 
million meals per year through a variety of programs at the 
food bank. Previously, you were the vice president of the 
Government and Community Affairs for YUM! Brands as well as 
legislative assistant for Senator McConnell for 6 years.
    Thank you for being here today, and I look forward to your 
input.
    Let us start it off with Mr. Schaeffer.

    STATEMENT OF SAM SCHAEFFER, CHIEF EXECUTIVE OFFICER AND 
 EXECUTIVE DIRECTOR, CENTER FOR EMPLOYMENT OPPORTUNITIES, NEW 
                         YORK, NEW YORK

    Mr. Schaeffer. Chairman Roberts, Ranking Member Stabenow, 
and members of the Committee, thank you for the opportunity to 
testify about the important role SNAP and the SNAP Employment 
and Training Program play in the lives of millions of 
Americans.
    I am Sam Schaeffer, the executive director of the Center 
for Employment Opportunities, or CEO. CEO is a national 
nonprofit that this year will provide employment services to 
more than 5,000 men and women recently released from 
incarceration.
    In 18 cities across California, Colorado, Ohio, Oklahoma, 
New York, and Pennsylvania, individuals come to CEO sometimes 
just days after being released from prison. Although half have 
never had a job, they are all eager to work, eager to support 
themselves and their families. Food insecurity, however, 
hinders success. Forty-one percent of CEO participants report 
that since exiting prison, they have run out of food and lack 
the resources to secure more.
    Meet Tomas Caban. Tomas served 16 years for a crime for 
which he is deeply remorseful. He took advantage of every 
opportunity in prison, earning a BA in social studies from Bard 
College. The day after release, Tomas signed up for SNAP 
benefits, and he came to CEO to find a job. He was not 
comfortable taking what he remembers being called food stamps, 
but he would have gone hungry otherwise. Tomas spent 2 months 
at CEO, showing up every day for a transitional job, honing 
basic skills like team work and punctuality.
    Tomas wanted to be here today. The reason he could not come 
and the reason we could not get the smile in this photo off his 
face is that he is preparing to start his first job in more 
than 17 years. He will be working as a client advocate in a 
homeless shelter in Brooklyn. Tomas is relieved and proud. He 
has a way to support himself. His time on SNAP is ending, and 
he has a job where he can give back.
    CEO supports 1,250 people a year like Tomas through the E&T 
program. As a third-party partner to multiple States, CEO will 
match every Federal dollar, as much as $2 million this year, 
representing a significant leveraging of resources. CEO has 
been proven to work through a randomized control trial, and to 
be clear, we are one of many evidence-based programs who could 
use E&T to help men and women on SNAP find economic security.
    While my written testimony has several detailed 
recommendations, I would like to highlight the following for 
the Committee.
    First, I urge the continued funding of a SNAP E&T program. 
Addressing food insecurity and employment through a single 
government intervention is aligned with what we know about 
hunger and poverty. Hungry people are incapable of focusing on 
the things we ask them to: making a career plan, showing up 
ready to work, being patient with coworkers and supervisors. 
Even motivated individuals cannot function well when their mind 
is occupied with when they will next eat.
    Second, maintain the flexibility that has been a hallmark 
of E&T from its inception. This flexibility allows States to 
design initiatives responsive to local needs. That said, we 
must balance this flexibility with increased focus on 
evaluation and rigorous data collection. Building on the 10 
pilots authorized in the previous Farm Bill, the Committee 
should authorize an additional 4100 million for States that 
adopt activities proven to work through rigorous evaluation. We 
should build a collection of E&T-specific best practices to 
scale across the country.
    Finally, reconsider the 3-month limit on benefits for 
populations with barriers to employment, such as the formerly 
incarcerated. Men and women on parole, for instances, have 
competing obligations, like mandated drug treatment and parole 
check-ins, that make it difficult to meet required work 
thresholds. States should be allowed to apply for waivers for 
this population and others who have severe difficulty entering 
the labor market.
    In closing, SNAP E&T is essential for the survival of 
individual people and the health, security, and prosperity of 
our communities. Without SNAP, many other problems we are 
trying to solve promoting opportunity, keeping communities 
safe, and supporting strong families become harder, if not 
impossible.
    Thank you.
    [The prepared statement of Mr. Schaeffer can be found on 
page 67 in the appendix.]
    Chairman Roberts. Thank you for your testimony and that 
excellent presentation in regards to that individual that is 
now a working part of our society. That is very helpful.
    Mr. Parker.

   STATEMENT OF BRYAN PARKER, COMMUNITY FOOD BANK OF EASTERN 
                   OKLAHOMA, TULSA, OKLAHOMA

    Mr. Parker. Thank you. Thank you for allowing me to testify 
today.
    My name is Bryan Parker. I am a 51-year-old father of two, 
a native of Tulsa, Oklahoma, and a recipient of food stamps--I 
am sorry--SNAP benefits.
    I am also a veteran. I served on board the U.S.S. Midway 
from 1985 to 1988. I then lived in Japan for the next 20 years 
as the owner of a small chain of English cram schools. I was 
also a physical fitness trainer for MMA fighters and of 
professional wrestlers.
    In 2010, I moved back to Tulsa to be with the family and 
friends here, left behind my two daughters, who are both 
successful, my oldest being an architectural engineer and my 
youngest also a chef, both quite successful in moving forward 
with their lives as adults.
    I have been in the restaurant industry myself for my entire 
life. I have held every position from dishwasher to a general 
manager and still take great pride in being prepared to step 
into any one of those positions at any given time to help my 
crew get through a crunch.
    I have always been a hard worker, and I believe in it. I 
have always felt accomplished and successful. I have never 
worried about paying a bill, buying food, or wondering where I 
was going to get the next meal. That was a thought that never 
crossed my mind.
    But like many people do, I lost my job. This happened 2 or 
3 years ago, and it is rough. I felt down on my luck, 
depression. I battled anxiety, and every day, it seems to grow 
a little bit stronger. You lose hope after a while. Every day 
that goes by without landing a job, it gets rougher.
    So while trying to find work, I had to find ways to cut 
spending. It was not too long before I would no longer--because 
I could no longer afford to keep my car or my home or anything 
else, for that matter. With each interview that went without 
the promise of a new job, the struggles just kept becoming more 
and more complicated.
    When it seemed that nobody was willing to give an 
opportunity to a man, it is tough when you are 51 years old, 
for anybody, but when you are looking for work, it is daunting. 
When you find yourself trying to land these jobs, when you are 
working out of a cheap midtown motel, it gets even more 
difficult.
    SNAP during this time was a lifesaver. It provided 
nutrition. It gave me hope. A man can endure a lot of pain and 
suffering, but one thing that is almost impossible to ignore is 
hunger.
    [Pause.]
    Mr. Parker. Excuse me.
    It is hard to live up to the--to your only responsibilities 
as a provider when you are not providing. I am very thankful 
for the SNAP program and for the SNAP benefits that I have 
received while trying to get back on my feet.
    I am happy to say that someone has finally decided to give 
me a chance, though, a second chance. I am currently enrolled 
in the Community Food Bank of Eastern Oklahoma's Culinary Trade 
Program, and I am over halfway finished with the 16-week 
course.
    The Culinary Trade Program is free to qualified 
participants, and it helps people needing a second chance in 
life.
    I am currently working there 5 days a week for at least 7 
hours a day. The program teaches professional cooking skills 
and life skills. The executive chef, Jeff Marlow, likes to 
remind us of his AA&E. That stands for--it is his little motto. 
It stands for ``attitude, attendance, and effort.'' He likes to 
tell us that these are the keys to life.
    Well, when I graduate from the Culinary Trade Program, I 
will--upon successful completion of the program and the final 
examination, I will leave the course with a Food Handlers 
Manager's Certificate and a set of chef knifes and some other 
little perks. All of the--this certification is also 
transferrable anywhere in the United States. It is a good 
program, and it is a program that has helped put me in a 
position to where I will be able to land any position I want, 
again, in the food industry.
    Ultimately, I would love to get my own food truck and 
further down the line move that into a more brick-and-mortar 
type of a scenario with a larger menu and a relaxing 
atmosphere.
    Immediately following this course, completion of the 
course, I will find myself in almost any professional kitchen I 
would like to work in, and that with hard work, really hard 
work, the training and my passion for cooking, my dream of 
ending my own business will become a reality.
    None of this would have been possible without the help of 
the food--the SNAP program and the Culinary Trade Program. I 
see every day how important SNAP is to many lives in the 
community. Everyone needs to eat, not just the employed or the 
wealthy or middle class. Everyone needs food, and food, it 
provides the fuel and the strength that we need. SNAP helps 
those in need, one step closer to self-sufficiency.
    Most do not even consider hunger to be an obstacle. It is 
hard to unless you have been there. If it were not for SNAP, I 
would probably--I would probably be homeless, and that is not 
easy to say. I am a proud man. Unless you have been there, you 
really would not--you would not understand it. All you can do 
is focus on when you might eat again or how you are going to 
come up with the 40 bucks it takes to stay in a cheap motel one 
more night. This is why SNAP is important to me and the people 
that need it.
    Honestly, I believe anyone working, middle-class 
individual, it is just one life-altering change or event, bad 
event away from being in the same situation.
    One day, I want to be able to pay it forward, and 
hopefully, I am doing that right now.
    Thank you for allowing me to tell my story today. I am 
blessed and fortunate to be here. Thank you.
    [The prepared statement of Mr. Parker can be found on page 
60 in the appendix.]
    Chairman Roberts. Bryan, from a marine to a Navy veteran--
and I thank you for your service--well done.
    Mr. Parker. Thank you, sir.
    Chairman Roberts. Mr. Wright.

 STATEMENT OF JIMMY WRIGHT, PRESIDENT, WRIGHT'S MARKET, INC., 
                        OPELIKA, ALABAMA

    Mr. Wright. Good morning, Chairman Roberts, Ranking Member 
Stabenow, and distinguished members of the Agriculture 
Committee.
    My name is Jimmy Wright, and I am the owner of Wright's 
Market in Opelika, Alabama. It is an honor and a privilege to 
be before you this morning.
    I have been asked to testify today by the National Grocers 
Association on behalf of the retailers and wholesalers that 
comprise the independent sector of the supermarket industry.
    Wright's Market is a small, family-owned, full-service 
supermarket. We have accepted SNAP as a form of tender 
essentially since the store opened, and we understand the needs 
of these customers extremely well, including many who are 
elderly.
    We began a shuttle service 3 years ago called ``Wright 2 
U'' for our customers who are unable to get to the store due to 
a lack of transportation. We expanded this service last August 
when we launched an online delivery option that serves the 
communities of Opelika and Auburn. We have been very pleased 
with the success of this service.
    I am grateful this service has given us a unique 
opportunity to participate in the Online SNAP Purchasing Pilot 
Program, and we are confident in our ability to execute this 
model efficiently and effectively for SNAP customers.
    We have been willing to take the risk by investing time and 
capital into this initiative. We are still waiting for the 
green light from USDA.
    The supermarket industry is changing rapidly, and for small 
businesses like Wright's Market to successfully innovate in 
food retail, we need the Government to keep up the pace with 
our ambitions.
    When the USDA transitioned from paper vouchers to EBT 
cards, our SNAP customers benefitted, and our store achieved 
new efficiencies. Implementing this pilot will be an important 
step in the right direction, much like the EBT transition.
    As one example of the possibilities this pilot can bring, 
we are planning to leverage our delivery to SNAP customers with 
other community services. For example, I am working on a 
program with East Alabama Medical Center to put physician 
assistants or RNs on our delivery vehicles to provide basic 
medical checkups or care to these customers, many who live in 
the rural areas that lack access to medical care and therefore 
often wind up in the ER with chronic medical issues.
    As the Committee examines other ways to improve Federal 
nutrition programs, I would suggest you start by ensuring a 
favorable regulatory climate for supermarkets. We understand 
there is a desire for some lawmakers to restrict food choices 
for SNAP recipients.
    While we support the goal of promoting healthier eating, 
the implementation of such an idea would be completely 
unworkable for the independent supermarket community. The added 
regulatory burden and costs coupled with an inevitable stigma 
that our SNAP customers would face may put some grocers out of 
business and, therefore, make food insecurity worse.
    Instead of Government mandates, we believe that programs 
such as FINI, HFFI, and SNAP-Ed have proven to be effective in 
expanding healthy food access and incentivizing healthy food 
purchases. For this reason, we support their reauthorization in 
the next Farm Bill.
    To encourage more small businesses growth in our industry, 
we also recommend a more efficient process for the approval of 
SNAP applications for small retailers in good standing with the 
program.
    We appreciate the progress that FNS has made in making the 
process more efficient for larger store groups, and we 
encourage them to expand this to other retailers in good 
standing.
    Not too long ago, I helped a nonprofit ministry in Atlanta 
open a small store named Carver Market in an Atlanta food 
desert, and it took nearly 3 months to get the SNAP license 
approval from USDA. Delays for store openings in food-insecure 
areas is frustrating, and we would appreciate any potential 
improvements to the process.
    The SNAP program, in my opinion, is one of the most 
important and efficient programs our nation offers. In our 
business, it creates jobs. In our community, it helps those in 
need.
    Finally, NGA commends USDA and the particular team at FNS 
for their tireless work to respond to the back-to-back 
disasters caused by Hurricanes Harvey and Irma. Throughout both 
disasters, the Department has been proactive, and it has been 
in communication with the retail food industry and State 
agencies. We sincerely appreciate the hard work that has been 
done and continues to be done by the FNS staff.
    Thank you for your time. I look forward to your questions.
    [The prepared statement of Mr. Wright can be found on page 
93 in the appendix.]
    Chairman Roberts. Dr. Schanzenbach.

 STATEMENT OF DIANE SCHANZENBACH, Ph.D., DIRECTOR AND MARGARET 
 WALKER ALEXANDER PROFESSOR, INSTITUTE FOR POLICY RESEARCH AT 
          NORTHWESTERN UNIVERSITY, EVANSTON, ILLINOIS

    Ms. Schanzenbach. Thank you, Chairman Roberts, Ranking 
Member Stabenow, and members of the Committee. Thanks for the 
opportunity to appear before you today.
    My name is Diane Schanzenbach, and I am the director of the 
Institute for Policy Research and a professor at Northwestern 
University.
    SNAP is a highly efficient and effective program. It kept 
8.4 million people out of poverty in 2014, including almost 4 
million children. It is sufficiently targeted to families who 
need the benefits the most. It reduces the likelihood that 
families have trouble affording food and serves as an automatic 
fiscal stabilizer in times of economic downturns.
    A key reason for SNAP's success is that it relies on the 
private sector to provide efficient access to food through 
grocery stores and other retail outlets. The program's reliance 
on the free-market system has been a critical feature of SNAP 
since its beginning.
    SNAP serves a diverse caseload. The overwhelming of 
individuals who participate, nearly 80 percent of participants 
are children, the elderly, disabled, or working adults. The 
employment rate among SNAP households has consistently climbed 
over the past two decades, and there is no evidence that SNAP 
has a sizeable negative impact on employment rates.
    SNAP benefits the wider economy by providing an effective 
stimulus during difficult economic times. By design, SNAP can 
very quickly adapt to economic downturns. As more households 
become eligible for the program, for example, due to job loss, 
they can be quickly enrolled with total program outlays 
automatically increasing along with need.
    SNAP payments and caseloads increased in the wake of the 
Great Recession but have been falling since their peak at the 
end of 2012, with the Congressional Budget Office predicting 
further declines in coming years in response to the 
strengthening economy.
    SNAP recipients quickly spend the benefits providing a 
rapid fiscal stimulus to the local economy, including the 
retail, wholesale, and transportation systems to deliver the 
foods purchased. The USDA estimates that every $5 in new SNAP 
benefits generates as much as $9 in additional economic 
activity.
    Alan Blinder and Mark Zandi have found that Congress' 
authorization of the temporary SNAP increase during the Great 
Recession had a larger fiscal stimulus impact than did any 
other potential spending increase or tax cut policy.
    SNAP's entitlement structure, therefore, is one of its 
greatest strengths. Block granting or otherwise capping the 
program would fundamentally undermine its timely stabilizing 
impact on the macro-economy.
    SNAP also enables families to buy nutritious foods that 
they otherwise could not afford, such as vegetables and healthy 
proteins, and it reduces food insecurity.
    Recent research that I have conducted documented that SNAP 
is a very good investment that has lasting positive impacts on 
children. Those who had access to the SNAP program during 
childhood were 18 percentage points more likely to graduate 
from high school, and they grew up to be healthier. Women, in 
particular, were more likely to become economic self-sufficient 
adults due to access to SNAP during childhood. In other words, 
SNAP is not a welfare trap, but instead, we should think of it 
as an investment in children.
    In terms of potential reforms to SNAP, while SNAP is 
effective, it would be even more effective if the benefit were 
better aligned with families' needs. Evidence suggests that 
modest increases in SNAP benefits would improve dietary quality 
and reduce food insecurity.
    SNAP could also broadly adopt market-based policies to 
encourage participants to consume a healthier diet. Market-
based policies that produce rebates for purchase of healthy 
foods or bonus dollars for use at farmers markets and grocery 
stores would increase healthy food consumption among SNAP 
recipients.
    The Committee could also serve children in nutritional need 
better by measuring and establishing performance metrics for 
cross-enrollment of eligible SNAP participants into WIC, 
similar to the performance metrics for the National School 
Lunch Program. Such a move would turn needed attention to 
serving this important and vulnerable group.
    Strengthening SNAP is a smart public investment that will 
improve both public health and economic growth.
    Thank you, and I look forward to answering any questions 
that you have.
    [The prepared statement of Ms. Schanzenbach can be found on 
page 83 in the appendix.]
    Chairman Roberts. Thank you, Doctor.
    Mr. Riendeau.

 STATEMENT OF BRIAN RIENDEAU, EXECUTIVE DIRECTOR, DARE TO CARE 
                FOOD BANK, LOUISVILLE, KENTUCKY

    Mr. Riendeau. Chairman Roberts, Ranking Member Stabenow, 
and members of the Committee, thank you for inviting me here 
today.
    I am Brian Riendeau, executive director of the Dare to Care 
Food Bank in Louisville, Kentucky, and I am honored to 
represent not only my food bank but Feeding America's network 
of 200 food banks that serve more than 46 million people in 
need.
    Our collective vision is a hunger-free America, a country 
where everyone has enough to eat at all times to live an active 
and healthy life.
    Dare to Care works with more than 300 agencies across 13 
counties in Kentucky and Indiana. Our service area spans nearly 
4,000 square miles and includes urban, suburban, and rural 
counties.
    Now, I know that to make sound decisions regarding funding 
of Federal nutrition programs, you need sound data, and I have 
submitted extensive written testimony that will, hopefully, 
supply some of that.
    In my remarks, however, I would like to provide two 
testimonials to create a larger context for this discussion. 
After all, behind each piece of data is a real person.
    So, first, please meet Ray, a client in Kentucky who 
receives TEFAP. In Ray's words, ``I am a 73-year-old veteran, 
military veteran. I was diagnosed with stage IV cancer, was 
unable to work, had a sick wife and sister to care for. My 
local food pantry signed me up for the monthly TEFAP program, 
and it has helped me through this tough past by supplementing 
our other sources of food, so we have enough to eat. I cannot 
begin to thank those who made this program possible.
    Second, meet Sarah, director of one of our partner 
agencies. In Sarah's words, ``At our food pantry, we have 
regular volunteers who get to know the clients we serve. They 
hear their stories of scarcity and insecurity. They hear the 
woman who was so grateful for her TEFAP box because she had to 
pay extra for medicine that month. They know the grandparents 
who are raising their grandchildren and receive no additional 
assistance. One such family did not leave the parking lot after 
getting their box. They ate it immediately in the car. The 
TEFAP food helps us stabilize our clients' lives.''
    So throughout this renewal process, let us always remember 
the real people--there are real people whose lives may be 
impacted by the decisions we make here.
    Last year, Dare to Care Food Bank distributed over 19 
million meals to 134,000 struggling individuals. That includes 
7.2 million pounds of fresh produce and 3.8 million pounds of 
TEFAP product.
    TEFAP and all the Federal nutrition programs are critical 
to our success. In fact, TEFAP represents 70 percent of the 
food that we distribute. We contribute TEFAP with food that is 
donated as well as food that we purchase to meet the needs we 
see in Kentuckiana.
    The highly nutritious products we receive through TEFAP 
greatly increased our overall nutritional mix of our food 
contributing to the health of our clients.
    TEFAP is particularly important among Federal nutrition 
programs because, in my service area, nearly 50 percent of our 
food-insecure neighbors have incomes too high to qualify for 
SNAP. The food Dare to Care provides, including TEFAP, is often 
all that is available to offset hunger.
    Yes, unemployment is down, but food insecurity remains 
unacceptably high, and I urge the Committee to ensure continued 
strong funding of all the Federal nutrition programs, 
particularly TEFAP, in the upcoming bill.
    Dare to Care Food Bank also benefits by the Kentucky Farms 
to Food Banks Program. This initiative increases access to 
healthy food for struggling Kentuckians by distributing surplus 
and No. 2-grade produce which is fresh and edible but not 
saleable because of minor blemishes or size discrepancies. With 
State and private funds, the Kentucky Association of Food Banks 
helps farmers cover their costs to pick, package, and deliver 
their unmarketable produce to food banks.
    Through the leadership and the support of our Kentucky Ag 
Commissioner, Ryan Quarles, this program provides crucial 
support to farmers, reduces food waste, and feeds the hungry. 
It is something that other States have implemented and that I 
would urge the Committee to consider scaling it nationwide.
    In conclusion, I firmly believe that hunger is solvable, 
and my food bank colleagues and I are dedicated to the task and 
will continue to work together with you and private 
stakeholders to achieve our vision of a hunger-free America.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Riendeau can be found on 
page 62 in the appendix.]
    Chairman Roberts. Our thanks to Panel 2, and thank you for 
taking the time to join us today and to share your insight. We 
really appreciate that.
    Mr. Schaeffer, leading up the Farm Bill, a lot of 
discussion of SNAP has revolved around the concept of work. 
Unfortunately, we do not yet have the results of the work 
pilots from the last Farm Bill, and the question remains on how 
best to facilitate SNAP's participants return to self-
sufficiency.
    Your testimony referenced a personal case and made several 
recommendations to improve the employment and training 
authorities.
    Conversely, what pitfalls should the Committee avoid?
    Mr. Schaeffer. Thank you, Mr. Chairman.
    While there certainly are pitfalls for the Committee and 
for the next Farm Bill to avoid, I would begin by emphasizing 
that the previous Farm Bill and this Committee's work, in 
particular, has positioned the work requirements under SNAP 
very well, and highlighting those 10 pilots operating now 
across the country is going to help us build an evidence base 
of what is effective.
    I would further add that USDA's investments in their SNAP 
to Skills initiatives are giving the right technical assistance 
to States to design more effective programs also to third-party 
partners, like CEOs. So I think we are on good footing. 
Certainly, as we build this knowledge base and operational 
efficiencies, there are, I think, three pitfalls I think we 
should be mindful of avoiding.
    One is that for E&T programs, there is not a one-size-fits-
all model. As has been referenced numerous times in this 
hearing this morning, the recipients of SNAP benefits, the 
participants in SNAP E&T programs represent a tremendously 
diverse group of Americans, from folks like Mr. Parker to 
individuals coming home from prison, and we need to be mindful 
that for each of these groups, a different set of job and 
training activities would be more appropriate. Some will need 
less intensive activities; some will need more intensive 
activities. Resisting the urge to sort of funnel everyone 
through one path will be incredibly important. We need to aim 
to find the right program for the right person at the right 
time.
    I would further emphasize that job retention is critical. 
From any individuals who participate in CEO's programs, it will 
be their first ever job. Finding that job is a challenge. 
Keeping that job can be just as hard. So ensuring that the E&T 
program allows for the intensive investments to help people 
manage employment over the long term to gain greater skills to 
continue to move up, up the economic ladder, is a key point.
    Then, finally the SNAP program, the $507 million are spent 
as part of the E&T portion of that program, $200 million--$199 
million, to be specific, actually comes from a match program in 
which States, philanthropy, private donors help leverage a 
correlative amount of Federal dollars. While I think that 
represents a tremendous leveraging ability, I would be mindful 
that certain communities and certain third-party providers 
across the country might not have the same access to those 
economic means. So I think a pitfall to avoid would be ensuring 
that every community can take place in this really important 
program.
    Chairman Roberts. I thank you for that.
    Mr. Parker, thank you for your service to this country.
    What made you decide to enroll specifically in the Culinary 
Trade Program?
    Mr. Parker. Thank you, Mr. Chairman. That is--it was easy. 
It was a passion for food. I think my mom had something to do 
with that when she taught me how to scramble and egg, but it 
started as a child. It has continued through my adult life. It 
is just something I love to do.
    This particular course came to me through my participation 
with the Barracks Program, and they pointed it out to me and 
got me set in the right direction. To have an opportunity to 
work with a great team of chefs is--it is something that is 
worth paying for, and I am fortunate enough to be able to go 
there and, frankly, be--I get a stipend for going there. They 
are almost paying me. So it is an opportunity to go there and 
learn from great chefs and one that you do not pass up.
    Chairman Roberts. As you continue your success with your 
food truck there in Tulsa, what are you going to offer the good 
folks?
    Mr. Parker. Oh, at the food bank, we offer quality, a 
quality product on a daily basis.
    I did not anticipate walking into--seeing a walk-in full of 
high-quality proteins. We have got ribeye steaks. We have got 
anything you want, and it goes out to people who need it. So we 
have got quality ingredients, and we put it out on a daily 
basis with pride. It means a lot to me.
    I thought that I was going to be walking into a bunch of 
flour and sugar and dried goods, and that is not the case at 
all. It is a pleasure to be there, and I am learning from a lot 
of good people.
    Chairman Roberts. But the question I have for you, sir, you 
said you had ambition to get your own food truck.
    Mr. Parker. Yes, sir.
    Chairman Roberts. I just want to know what you are going to 
serve the good folks in Tulsa and Kansas.
    Mr. Parker. Oh, okay. Thank you.
    Chairman Roberts. Kansas is pretty close. If you get 
something pretty good, I will come down.
    Mr. Parker. All right. Well, yes. Anywhere from burgers to 
tacos. I have to wait until I get there to figure it all out, 
but I am thinking about probably burgers or tacos.
    Senator Stabenow. All right.
    Mr. Parker. You are more than welcome, Mr. Chairman.
    [Laughter.]
    Chairman Roberts. It would be Bryan's--maybe Bryan's 
Burgers on the side of the truck.
    Mr. Parker. All right. That is what we are going with.
    Senator Stabenow. That is good. That is good.
    Mr. Parker. Done.
    Chairman Roberts. I offer that at no cost, of course.
    Mr. Parker. Thank you, sir. Thank you, sir.
    [Laughter.]
    Chairman Roberts. Mr. Wright, like many grocers in rural 
communities, your store faces a lot of challenges related to 
the supply chain or serving a smaller customer base.
    SNAP-authorized retailers, as you have indicated in your 
statement, must also comply with additional rules and regs that 
add a layer of administrative burden, to say the least, and I 
share your concern that some would like to create additional 
burdens under the guise of--the well-intended guise of 
promoting nutrition by dictating what people should eat and 
forcing cashiers to be the food police. We just do not need 
that.
    Are there any other regulatory burdens that we should seek 
to address or avoid?
    Mr. Wright. Mr. Chairman, thank you.
    I think that that is certainly a concern for our industry 
and how we would handle that.
    Again, back to my testimony, just the ability, if we decide 
to grow and in good standing with the USDA, that we would be 
able to obtain a license and move very quickly on that, and we 
would also ask that a fast track, so to speak, would be set up 
for retailers in good standing and also people who are 
committed to serve the food deserts of America. Those would 
really help us.
    Our big concern that we see looming out there right now is 
the food choice, and any other things that would have to do 
with the processing of the program that would add cost to it, 
that unfortunately would force us to have to pass those costs 
on to our customer, thus, reducing the amount of buying power 
they would have.
    Chairman Roberts. I appreciate that.
    Mr. Riendeau, you mentioned the importance of public 
support to your food bank's operation, but you depend on 
private support as well. Can you give us what percentage of 
food does your food bank receive from TEFAP versus private 
donations?
    Mr. Riendeau. Certainly. We--Dare to Care, about 17 percent 
of the food receive comes from the TEFAP program. We also 
receive food from donations from national donors, retailers, 
local retailers, and increasingly, we find ourselves purchasing 
more food. So, today, almost 10 percent of the food that we 
acquire and distribute is purchased food.
    Chairman Roberts. I understand you all expend some of your 
own funds for storage and distribution of TEFAP commodities. 
Can you give us what percentage of those costs do the TEFAP 
administrative funds cover and what percent that you have to 
chip in?
    Mr. Riendeau. Yes, absolutely. That is a great question.
    So the TEFAP storage and distribution reimbursement covers 
about 23 percent of the cost to Dare to Care Food Bank to 
acquire, store, and distribute TEFAP products. So, clearly, it 
is not covering the majority of those costs, and frankly we 
would love to discuss or love to see the Committee consider 
increasing storage and distribution allocations. It would free 
up funding that we could then allocate towards other programs 
in feeding--acquiring healthy, nutritious food and feeding more 
people.
    Chairman Roberts. Well, we would both--all of us on the 
Committee, would like to encourage some of that at the national 
level. Let me point out what you hear time and time and time 
again. That we have some very tough spending decisions as we 
head into this Farm Bill.
    Are there aspects of the Farms to Food Banks that are low 
or no cost?
    Mr. Riendeau. Well, let me say, first of all, I certainly 
understand and sympathize with the tough challenges facing you 
and the Committee.
    On the Farms to Foods Banks Program, I would love to--I 
would welcome the opportunity to sit with you and your staff 
and talk more about that program and how it might be leveraged 
at the Federal level.
    I know in Kentucky, it is a jointly funded program. The 
State kicks in about 600,000, and taxpayers have an opportunity 
to donate a portion of their return on the tax check-off, and 
then there is also a significant private-sector funding. So 
most aspects of the program do require costs.
    In Kentucky, we found a wonderful private-public 
partnership that works and would love to see if that could be 
replicated here.
    Chairman Roberts. Senator Stabenow?
    Senator Stabenow. Thank you very much, Mr. Chairman, and 
thank you to each of you for the excellent panel.
    I first want to say to Mr. Parker, thank you for paying it 
forward on behalf of many people that are not able to be here 
today and for talking about how important it is that our 
country has your back when someone has the need for temporary 
assistance, so thank you.
    By the way, we are roaring back in Detroit with hundreds of 
new restaurants being opened, as well as food trucks. So I 
would suggest that you ought to come on up. We would love to 
have you join us in this great new effort that is happening.
    I was just meeting the other day with folks opening 
restaurants saying they are desperately in need of chefs and 
culinary help--so that is just a plug for Detroit.
    Let me start, Dr. Schanzenbach, talking about the fact that 
SNAP enrollment does go up and down. That is what it is 
supposed to do, and the good news is that the costs are going 
down, the spending is going down because we are seeing the 
economy getting better. The Budget Office says we are going to 
save about $80 billion over the next 10 years.
    Can you tell us a little bit more about what your research 
shows about participation and why it is important that SNAP is 
able to shrink as well as grow when there is need?
    Ms. Schanzenbach. Absolutely. The SNAP program was one of 
our most important programs during the great recession. I mean, 
we, of course, all remember that we saw labor market 
devastation on a scale not seen since the Great Recession--
Great Depression, actually.
    In fact, our calculations at the Brookings Institution 
suggested that the economy just in July recovered back to the 
jobs numbers that we had at the beginning of that, so it was a 
very long, deep recession.
    You will recall that, a lot of times, it is the people who 
are on SNAP who will be the first to lose their jobs and last 
to get them back. So what the research has found is that every 
dollar that got spent on a SNAP program really stimulated the 
local economy because people spend those very quickly, they 
spend them at local grocery stores, helps families make sure 
that their kids are able to go to school and learn. I mean, the 
program has many, many terrific strengths.
    Senator Stabenow. Great. Thank you so much.
    Mr. Schaeffer, you clearly run a very impressive program 
and appreciate your being here today.
    Can you talk a little bit more about why voluntary training 
and support programs are more effective in connecting SNAP 
recipients to employment than time restrictions or more 
punitive actions?
    Mr. Schaeffer. Thank you for the kind words, Ranking Member 
Stabenow, and yes, happy to address that question.
    CEO participants, as I mentioned, will come into a program 
like ours, weeks, sometimes just days after being released from 
prison, and it is an incredibly volatile time in their lives. 
The challenges that they face are tremendous, from reconnecting 
with family to finding a safe, secure, affordable place to 
live, to accessing the substance abuse treatment that so many 
will need.
    Putting incredibly hard and tight work requirements on 
those individuals, given those completing obligations, 
sometimes is just not realistic for individuals.
    We also find that with many populations who access SNAP and 
SNAP E&T benefits, that point of agency is critical. They have 
to be able to choose the program, to enroll in the program that 
is going to best fit their needs, their interests, and allow 
them to be successful.
    But we found in our program and criminal justice literature 
generally, if you mandate someone into a program, you are much 
less likely to have long-term success. It certainly is critical 
to provide that array of programing to give folks the 
opportunity and the appropriate amount of time to find food and 
economic security.
    Senator Stabenow. Thank you.
    So you are saying Government mandates, in this case, are 
not as effective as voluntary programs.
    Mr. Schaeffer. Correct.
    Senator Stabenow. So thank you.
    Mr. Wright, I am so impressed with what you have been doing 
with Wright's Market and also very impressed that you are 
talking about combining that with health in terms of reaching 
out to people. Obviously, the connection between nutrition and 
health outcomes is so important. I really appreciate the fact 
that you are really leaning into that effort.
    Mr. Wright. Thank you.
    Senator Stabenow. Could you talk a little bit more about 
the economic impacts that the incentive programs have for 
independent grocers like yours?
    Mr. Wright. Well, certainly, in our business, SNAP is 
almost 40 percent of our retail sales.
    Senator Stabenow. Wow.
    Mr. Wright. So it certainly creates jobs, and it is very 
helpful to us from the economic standpoint.
    Some of the other things that the SNAP program brings to 
the table is just reaching--we have seen examples already of 
reaching people that are desperately in need, so there 
certainly is a business side of that, but by the same time, 
just the other benefits for our community, we still see a lot 
of elderly--and people.
    But it is an economic driver. I saw some statistics in 
2015. For every $1 SNAP benefits, I think $1.80 was returned 
back, and I think that a colleague here referred to $9. So it 
is certainly an economic generator. It is something that is 
good for our industry and I think a very efficient program the 
Government does to get that kind of return back on it.
    Senator Stabenow. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    In Arkansas, one in four children struggles with hunger, 
yet not all eligible children are receiving access to their 
nutrition programs that they need.
    Dr. Schanzenbach--did I get that right?
    Ms. Schanzenbach. You did.
    Senator Boozman. Good. You are like me. You probably answer 
to anything.
    [Laughter.]
    Senator Boozman. Your research demonstrated clear 
connections between children who have access to SNAP and 
educational outcomes. Do you see connections between the SNAP 
and the school meals, and how is the interaction of these 
programs working on the ground?
    Ms. Schanzenbach. Yes. As I mentioned in my testimony, I 
think the performance standards that you all put in last time 
relating to SNAP and the National School Lunch Program have 
done a tremendous amount of good, making sure that children 
have access to both sets of programs. I would really encourage 
you to consider doing the same with WIC this time because 
participation in WIC is actually very low. While 85 percent of 
infants who are eligible participate in WIC, that falls down to 
about 30 percent by age 4. I think establishing some 
performance standards there would really help these vulnerable 
children.
    Senator Boozman. Very good.
    Mr. Wright, can you expand on the online SNAP pilot program 
that your grocery store is participating in? How do you think 
it can be effective to be able to fight hunger in rural food 
deserts likes ones that we have in Arkansas and I know in 
Alabama?
    Mr. Wright. Again, we are very pleased and honored to be a 
part of the pilot program.
    You know, when people typically think of a food desert, 
they think of in the urban area of Philadelphia, Chicago, or 
somewhere like that. Alabama, much like Arkansas, the 
challenges that we have are in our rural areas, and 
unfortunately, they are in areas that do not have the 
population density to support a full-size brick-and-mortar 
supermarket.
    So we believe using e-commerce and online delivery, we can 
reach into these areas and bring a full variety of products, 
especially fresh produce and fresh meat to these customers, 
that would not be accessible to them as they are today.
    Again, partnered with a health care component, which is 
another area that is missed in these rural communities, we feel 
like we have got a great model that can make a difference 
nutritionally and in health care also.
    Senator Boozman. Very good.
    Mr. Wright, Mr. Riendeau, you both are serving rural 
communities that have food access issues, again, the deserts. 
What are some of the major barriers to food access, and how are 
these being solved from the local level? Sometimes it is 
difficult to push things out at the Federal level.
    Arkansas is very different than Massachusetts or whatever. 
Where we get into trouble is the one-size-fits-all.
    Mr. Riendeau. Right, yes, serving rural areas in our world 
is much--presents unique challenges. There are distances 
traveled, which we do not see in urban areas. There is the lack 
of good partners or just fewer partners that we can work with 
to distribute food, and then there is for particularly in the 
case of children, kids do not congregate in rural areas like 
they congregate in urban areas.
    I was here 2 years ago to talk about the Summer Food 
Service Program and the importance of injecting flexibility 
into that program to allow States like yours and my rural 
counties to adapt the program to meet the unique challenges in 
those communities, and some work was--some progress was made 
there. I think anything that the Committee can do to encourage 
that flexibility to allow food banks like mind to adopt 
programs that fit the unique circumstances we see are certainly 
worthwhile.
    Senator Boozman. Right. Very good. I know the congregant 
feeding issues and all those things really are very, very 
important, and that is just something that we have to deal with 
and provide some flexibility.
    Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator.
    Senator Strange. Oh, I am sorry. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Chairman Roberts. I apologize.
    Senator Brown. Sorry, Luther. Sorry about that.
    He is taller. You did not see me. You saw him.
    Chairman Roberts. Well, you sneaked in on my right there.
    Senator Brown. Okay. Fair enough.
    First, I am sorry. We have been doing tax reform on Finance 
Committee and on banking issues with CFIUS, and I apologize for 
not being here.
    Mr. Parker, I have heard already a recounting of your 
story, and thank you for sharing it and your genuineness, and I 
appreciate the Chairman's response to it. Thank you very much.
    Mr. Wright, thank you for what you do in Alabama. We have a 
store. My wife and I live in the City of Cleveland. My ZIP Code 
has had more foreclosures, 44105, 10 years ago, had more 
foreclosures in my ZIP Code than any ZIP Code in America that 
year.
    We have stores not too different from yours, one 
particularly that serves what people called ``food desert,'' 
and thank you when you step up as a small businessperson like 
that, so to both of you.
    Dr. Schanzenbach, if I could direct a question to you. Last 
week I met with the Mid-Ohio Foodbank in Columbus and several 
hospitals, CEOs from Central Ohio. They are partnering to 
tackle hunger head-on and had one message for me how food and 
nutrition are so linked to health outcomes.
    We know the ZIP Code you come from, whether it is in 
Appalachia, Ohio, or inner city, Dayton, it matters a whole lot 
to your life expectancy and so much else.
    These CEOs told me the clear benefit they see in safety-net 
programs like SNAP. Good nutrition leads to patients that can 
recover more quickly. Patients who have access to food are 
better positioned, as you said well in this Committee already, 
to avoid chronic health issues. As one executive said, ``We can 
pay now or pay later.''
    Two questions. Your research shows links between SNAP and 
our broader work to address poverty in this country, including 
improvements in health care and educational outcomes. Are there 
improvements we make specifically to SNAP that would accelerate 
these gains?
    Ms. Schanzenbach. You know, in my opinion, the best 
improvements we could make, I guess, are twofold. One is I 
think the benefits right now are very meager, about $4.50 per 
person per day. I think the evidence suggest that a slightly 
larger benefit would improve the effectiveness of the program 
all the more, allow people to escape food insecurity, buy 
healthier foods, and so on.
    The second would be really expanding those market-based 
incentives to buy healthier food, whether that is a Double-Up 
food buck program or other, other programs like that.
    Senator Brown. Well, talk in more detail about if the--
first of all, I think Americans do not really know. We used the 
term ``food stamps'' for years. That term was seen by far too 
many people in a negative light. I think that is one reason it 
is now called SNAP, but it is still seen that way. Surely, 
people think the benefits are much greater than they are. 
People always have a story about somebody that they judged 
standing in line next to them or whatever. Sometimes it is a 
bit about race. Often it is not. It is just whatever, when 
taxpayers see others up close, the stories are told, as you 
know.
    But talk through what--having access to food, having a 
little bit more in SNAP, what it would mean for families trying 
to move out of poverty. Put us in a position. I mean, we do 
not--few of us, certainly all of us up here--as Pope Francis 
exhorted his parish priest, ``Go out and smell like the 
flock,'' and we do not do a whole lot of that here. We do not 
really see how--we do not hear up close the stories of Mr. 
Parker, and we do not experience it nearly often enough. So 
talk that through, if you would.
    Ms. Schanzenbach. Sure. So there is good research evidence 
that additional--modest increases and benefit levels will allow 
people to buy healthier food, right? So those first dollars 
that you have, especially if you are facing a lot of scarcity, 
you are going to buy high-calorie, dense foods, but then as you 
have more money, you can have a more varied diet, et cetera.
    So the evidence is that modest increase in food stamp--SNAP 
benefits would increase the purchase of vegetables, greens, 
high-quality proteins. In fact, it would actually probably 
reduce the likelihood that people buy fast food. So people buy 
healthier foods with more money.
    Senator Brown. Is there evidence that the programs we have 
done and experimented with and done sort of with fits and 
starts to allow food stamps to be used--or SNAP to be used 
for--at farmers markets, buying fruits and vegetables, 
increasing the value--are those working? In the limited way 
they have been tried, are those working?
    Ms. Schanzenbach. They sure seem to be, right?
    So, as an economist, I will tell you that anytime you 
change the relative price of something, if you reduce the 
relative price of vegetables and fruits, people will buy more 
of them, and, indeed, that is what the research is showing 
based on both the Healthy Incentives Pilot that was conducted 
in Massachusetts and in these Double-Up programs.
    Senator Brown. Thank you.
    I thank--I compliment the Chairman on--this Committee has 
worked on the school breakfast, school lunch program, and 
worked with a number of school cafeteria leaders in my State, 
in Cincinnati, in Marion especially, and worked to get young 
people exposed, particularly if they are not getting it at 
home, to more fruits and vegetables, so that can have some 
impact on lifelong eating habits. We know what that means for 
their life expectancy and their healthier lives.
    So thanks to all five of you on the panel.
    Chairman Roberts. Thank you, Senator.
    Senator Strange. Thank you, Mr. Chairman, and thanks to the 
panelists for being here. This is very informative to me.
    Jimmy, thank you for being here to talk about your great 
initiatives. A couple things you did not mention that I just 
want the Committee to be aware of, you mentioned partnering 
with the East Alabama Medical Center to address those issues, 
but also you work with the Hunger Solutions Institute at Auburn 
and our Cooperative Extension Service, brings those resources 
to those needed, constituents, to help them make better choices 
about their food selections and so forth. So I want to 
compliment you on that.
    Also, I appreciate the chairman asking questions about--and 
your raising them in your testimony about the processing time, 
some of the regulatory burdens that you face. It sounds to me 
that is more of a regulatory issues than it is a legislative 
issue, but we will be open to any suggestions you have there.
    I would like to ask you first about--I am so proud that you 
are participating in this pilot brown, but as a small retailer 
addressing a unique problem, I wish you would address the 
challenges that you face or explain opportunities, maybe, in 
dealing with other participants like the larger ones, Amazons, 
Walmarts of the world. How do you see that working? How do you 
differentiate yourself and your challenges from them?
    Mr. Wright. Well, thank you, Senator Strange.
    I have always looked at business, my business, two ways. I 
looked at it on the transactional side and on the relational 
side, and I think that is how most independent grocers in 
America do that.
    Our point of difference is, as independents, we are 
anchored in our communities. We are going to stay here, good 
times and bad. Some of our competitors, when it gets tough, 
they just go and leave.
    As far the online pilot is considered, on a transactional 
side, it is just getting a package from A to B, and that is 
fine. We have to compete in that space, and we certainly 
understand that. That is part of our business.
    The relational side is more of the things we are interested 
in and knowing the people that we serve and knowing them on a 
personal basis, and that is why we want to add the component of 
health care, looking at a much more holistic model of that, 
love that these relationships that we could build would run--
would carry over in some of the programs that you have heard 
from today.
    But, essentially, my business model and the business model 
for independent grocers from coast to coast is that we are 
anchored in our communities, and whether it is in store, 
whether it is online, we are going to make the relationships 
personal in our communities and be there to serve.
    Senator Strange. I love that approach, that holistic 
approach.
    Mr. Chairman, he has an assistant. He is raising Emily, who 
is 13, I think. She showed me around the store, so this is a 
generational thing, and it is very effective.
    You might in the remaining time tell us a little bit about 
the delivery route you implemented because it is an important 
service to the community, people that cannot get to your great 
facility, and how that is--what feedback you have gotten, any 
advice you might offer to other retailers in your situation 
that are considering doing that.
    Mr. Wright. Thank you.
    Two components to that. We started about 3 years ago, as we 
said in the opening statement, with our Wright 2 U shuttle 
service. Back to some of the conversations we have already had, 
transportation is still a huge issue, even in a community that 
is a pretty decent size. We still see a lot of elderly people 
that just have a tough time getting to the grocery story.
    So we started out having these people call our store. We 
come pick them up. We take them to the store and let them shop, 
and we take them back home. There is no charge to that. We see 
a lot of seniors from that program.
    Now as we roll into the e-commerce component of this, we 
see the same way. We already see in our initial launch, a lot 
of seniors out there that we are reaching now that just cannot 
get out to the store. Even if they wanted to ride in our 
shuttle, they are just not physically able to do that, so we 
see the ability to do that.
    Certainly, as we reach into the rural areas--there are four 
communities that surround Opelika, Alabama, that are anywhere 
from 15 to 30 miles that do not have a full-service grocery 
store. Their fresh food options are extremely limited, and this 
is a way that we see building a route to be able to go out and 
give people access to the grocery store without the grocery 
store actually being there.
    Senator Strange. Well, I want to compliment the panelists. 
As a former Attorney General, I appreciate the reentry efforts 
that you are making. That is a very significant component of 
the criminal justice system, and that work is very important.
    Mr. Parker, congratulations on your success, and the food 
banks obviously are a critical part of the chain of support, 
and I appreciate our economist validating some of the things we 
think are going on. So I thank the panelists, and thank you, 
Mr. Chairman.
    Chairman Roberts. We thank you, Senator.
    Senator Donnelly is here.
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank the panel and particularly to Mr. Parker 
for being here to testify before the Committee. Thanks for your 
service to our country. We are very, very grateful to you for 
that and for taking the time to be here to share your story--
and to the entire panel.
    To Mr. Wright, I will tell you that some of my dear friends 
back home are independent grocers who work hard every day to 
make sure that not only do they run good shops, but that folks 
in our community have a decent meal in front of them, and so we 
are grateful for your American ingenuity and entrepreneurship 
and hard work. That goes for the entire panel as well.
    Mr. Riendeau, one of the things that you do is you help 
Hoosiers in Southern Indiana be able to meet their needs and be 
able to take care of their families, and I want to thank you 
for that.
    I heard regularly from Hoosiers on the importance of 
getting high-quality American commodities, such as Hoosier-
grown meat and produce, to the people in our country who need 
it most, and that is supported by TEFAP, the Emergency Food 
Assistance Program.
    You highlight the critical nature of TEFAP in helping 
relief food insecurity. Can you share in more detail how TEFAP 
adds value to the foods you distribute from food donations and 
from other programs at Dare to Care?
    Mr. Riendeau. Certainly. I will highlight two things.
    First of all, just the volume of the product we receive 
from TEFAP is critical as we face what remains to be near 
record levels of food insecurity in Southern Indiana and in 
Kentucky. So the product itself is important in terms of 
providing meals to people in need.
    Dare to Care has worked over the last few years to really 
begin using our food and programs to improve the health and 
nutrition of our clients. We know that there is a direct link 
between poor diet and health.
    The problem comes in terms of the donated product that we 
receive. We cannot always count on what that is going to be, 
and we get what we get.
    TEFAP is 100 percent--considered 100 percent nutritious 
foods to encourage, so TEFAP is a critical component of our 
ability to get healthier, fresher food to our clients and 
address those health needs that we see.
    Senator Donnelly. This next question will be for you again, 
Mr. Riendeau, and Mr. Right as well. The importance of knowing 
how to stretch food dollars is really significant. Purdue 
Extension in our States does a great job in helping families 
gain skills and strategies that help make grocery trips more 
successful.
    So, Mr. Riendeau and Mr. Wright, can you share with us more 
about the nutrition education and the skill-building programs 
that you talk to families about to help them stretch their 
dollars and make good food decisions?
    Mr. Wright, would you like to go first?
    Mr. Wright. Sure. Thank you, Senator.
    Yes. An important part of the model we have going forward 
is the Alabama Cooperative Extension Program, SNAP-Ed program, 
and certainly education on how to shop smarter and how to cook 
smarter and how do we cook healthier, I cannot stress the huge 
importance of that.
    The store that I actually am involved with in Atlanta has 
got a program now that is a 6-week cooking program, and it 
addresses the same issues of how to shop, how to stretch your 
dollars, how to make your budget work for you, and what you are 
putting in your basket and how to prepare that and prepare that 
in a healthy way.
    So I cannot speak enough about the importance of the 
education piece and the partnership that we look forward to 
having in Auburn.
    Senator Donnelly. Mr. Riendeau?
    Mr. Riendeau. You raise a great point. One of the things we 
have come to realize as we push more healthy food out and make 
is available is that access is only part of the issue.
    The understanding why it is important to eat, changing 
cultural habits and attitudes, and then understanding what to 
do with healthy products is super critical.
    So we have a program called Cooking Matters, which is a 6-
week program that teaches adults and children and families how 
to shop for, prepare, and consume healthy food on a budget. We 
have a dietician on staff. She works to operate that program. 
We also hand out nutrition-related information and recipes with 
the products that we distribute.
    A lot of the product we get from TEFAP, oftentimes our 
clients will ask, ``What is this? What do I do with it? It is 
healthy, but I do not know what to do with it,'' so we have to 
educate them. So education, nutritional education is a critical 
component of all the work that we do, and anything that the 
Committee could do to help us on that front would be very 
important.
    Senator Donnelly. One last question, and this would be for 
Dr. Schanzenbach. Can you describe in greater detail some of 
the threats to food security for children and why the 
challenges they face are a little bit different than adults?
    Ms. Schanzenbach. Sure. I have been studying food 
insecurity, especially among children, for quite some time, and 
it is a really hard, hard nut to crack, and in particular, what 
we find is a lot of times in those poorest families, the adults 
in the household are suffering from other challenges, mental 
health problems, depression, and so on.
    As a result, not only it is hard to get a job and hold down 
a job, but it is just hard to go grocery shopping, cook meals, 
et cetera.
    Senator Donnelly. Right.
    Ms. Schanzenbach. So it is no fault of the children's, to 
be sure.
    Senator Donnelly. Thank you, Mr. Chairman.
    Senator Strange. [Presiding.] Thank you, Senator.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman, and I 
want to thank you and to thank Senator Roberts and Stabenow for 
this hearing today.
    This Nutrition Assistance Program is very important in my 
State, and I am proud to say that our SNAP program last year, 
we had a--2015, Minnesota was one of 11 States that had its 
error rate validated by the USDA and as a result received a 
bonus payment. I am going to have some questions on the record 
from our first panel about that, but clearly, we are doing 
something right.
    Last year, 479,000 Minnesotans participated in the SNAP 
program, but almost 69 percent of those participants were in 
families with children.
    My State is not alone in terms of need. So, Dr. 
Schanzenbach, what more can we do to strengthen SNAP nutrition 
education programs and support efforts taking place in 
communities so that SNAP participants can make healthy choices?
    Ms. Schanzenbach. Sure. So in terms of healthy choices, I 
really think we want to capitalize on what is great about SNAP, 
which is that it works well with the free market system, and to 
do that, typically we need to either change demand for fruits 
and vegetables and healthy foods, either through education 
programs or by changing prices, by giving bonuses for purchase 
of health foods.
    Senator Klobuchar. Very good.
    Mr. Wright, bringing broadband is one of my top priorities 
to rural communities, and we have some real issues in our State 
with that, farmers that do their business at McDonald's parking 
lots and things like that.
    So in the case of the last Farm Bill, it included a pilot 
program to test the feasibility of online SNAP purchases. Rural 
broadband can also, of course, increase access, and do you 
anticipate that access to rural broadband for your customers is 
going to be a barrier for participating in the program?
    Mr. Wright. I am sure we are going to find some of the 
proverbial digital deserts out there, and I guess that is two 
ways to look at that. It may be a challenge, but it also gives 
an opportunity to address some of those issues. But we think we 
can do that with some technology. We still have people today 
that are actually using something like a satellite dish and 
some other things on buildings to be able to access technology.
    So we will find a way to work, make this work, but it would 
be great if this continues to be at the forefront of discussion 
in the Farm Bill that broadband access is improved in these 
areas.
    Senator Klobuchar. Okay. Thank you.
    Mr. Riendeau, one important program that helps alleviate 
hunger is the Emergency Food Assistance Program, and I recently 
joined with Senators Casey and Perdue to be proactive in 
purchasing and donating bonus commodities to places like Second 
Harvest Heartland in St. Paul, and the bonus issue was just 
raised by Doctor. Can you talk about the importance of the 
USDA's bonus commodities, and have bonus commodities from the 
USDA kept pace with the demand?
    Mr. Riendeau. Thank you, and thank you for your support of 
that important program.
    Yes, the bonus component is very important to us. It is in 
addition to the base, and it all goes towards helping us meet 
what we see as near record levels and unacceptably high levels 
of food insecurity.
    Again, I guess I would talk about the nutritional aspects 
of the products that we receive through that program. These are 
high-quality proteins, vegetables, fruits, things that we do 
not get donated, things that we have to either buy or receive 
through this program. So it is critical to helping us not only 
meet the need, but meeting it with the right types of food.
    Thank you for your continued support of that.
    Senator Klobuchar. Thank you.
    Mr. Schaeffer, public-private partnerships play an 
important role in pooling resources, maximizing the value. Can 
you elaborate on your experience with public-private 
partnerships and the employment outcomes you have seen as a 
result?
    Mr. Schaeffer. Absolutely. Thank you for the question, 
Senator.
    It has been not just a hallmark of CEO's approach, but also 
a hallmark of the SNAP Employment and Training Program and I 
think an element that has helped it extend its reach far more 
broadly than otherwise exists.
    I can give you an example in two States in which we have 
worked, Pennsylvania and Ohio. In Ohio, there was a strong 
interest in bringing CEO's reentry services to the State across 
Cincinnati, Columbus, and Cleveland, large numbers of people 
coming home every year facing both food insecurity and a lack 
of employment, and those folks are universally eager to work, 
eager to not be on benefits, but needing that support.
    The State teamed different agencies, the Department of 
Corrections, the Department of Jobs and Family Services to 
support CEO's entry into the State, but part of that was a 50-
50 match, the support from the Jobs and Family Services through 
the SNAP E&T program. We will be able to leverage in Ohio over 
the next 2 years, I think, over $2 million in that match 
program, and so it is an ability for States to design programs 
and projects, initiatives that are responsive to local needs 
that meet their priorities, but also gain far more resources 
than they would otherwise without the match.
    Senator Klobuchar. All right. Very good. Thank you, all of 
you.
    You brought me a gift, ``Thank you for asking such nice 
questions.'' Thank you.
    Chairman Roberts. [Presiding.] It is amazing what you have 
to do to achieve bipartisan support.
    [Laughter.]
    Chairman Roberts. That will conclude our hearing today, and 
I want to thank each of our witnesses for taking time to share 
your views on the nutrition programs within the Farm Bill.
    The testimonies provided today are valuable for the 
Committee to hear firsthand, and we will follow up with the 
suggestions of various witnesses to meet with our staff, so we 
can further learn from you what we can do to better improve the 
program.
    For those in the audience who want to provide additional 
thoughts on the Farm Bill, we have set up an address on the 
Senate Ag Committee's website to collect your input. Please go 
to ag.senate.gov--been waiting all day to say that--
ag.senate.gov, and click on the Farm Bill hearing box on the 
left-hand side of your screen. That link will be open for 5 
business days following today's hearing.
    To my fellow members, we would ask that any additional 
questions you may have for the record be submitted to the 
Committee Clerk, 5 business days from today or by 5:00 p.m., 
next Thursday, September 21st.
    The Committee stands adjourned. Thank you so much.
    [Whereupon, at 12:00 p.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                           SEPTEMBER 14, 2017



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      
=======================================================================


                         QUESTIONS AND ANSWERS

                           SEPTEMBER 14, 2017



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


			         [all]

</pre></body></html>
